<html>
<title> - ASSESSMENT OF U.S. STRATEGY AND OPERATIONS IN AFGHANISTAN AND THE WAY AHEAD</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-108]

 ASSESSMENT OF U.S. STRATEGY AND OPERATIONS IN AFGHANISTAN AND THE WAY 
                                 AHEAD

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 23, 2008



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE
44-095                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant












                            C O N T E N T S


                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, January 23, 2008, Assessment of U.S. Strategy and 
  Operations in Afghanistan and the Way Ahead....................     1

Appendix:

Wednesday, January 23, 2008......................................    47
                              ----------                              

                      WEDNESDAY, JANUARY 23, 2008
 ASSESSMENT OF U.S. STRATEGY AND OPERATIONS IN AFGHANISTAN AND THE WAY 
                                 AHEAD
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Barno, Lt. Gen. David W., USA (Ret.), Director, Near East South 
  Asia Center for Strategic Studies, National Defense University.     5
Inderfurth, Ambassador Karl F., John O. Rankin Professor of the 
  Practice of International Affairs, George Washington University     8
Rubin, Dr. Barnett R., Director of Studies, Center on 
  International Cooperation, New York University.................    10

                                APPENDIX

Prepared Statements:

    Barno, Lt. Gen. David W......................................    51
    Inderfurth, Ambassador Karl F................................    62
    Rubin, Dr. Barnett R.........................................    78

Documents Submitted for the Record:

    Letter from Anthony H. Cordesman, Burke Chair in Strategy, 
      Center for Strategic and International Studies, dated 
      January 16, 2007, on strategy in Afghanistan, submitted by 
      Mr. Skelton................................................    97
    Afghanistan Map..............................................   107

Questions and Answers Submitted for the Record:

    [There were no Questions submitted.]
 
 ASSESSMENT OF U.S. STRATEGY AND OPERATIONS IN AFGHANISTAN AND THE WAY 
                                 AHEAD

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, January 23, 2008.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today we meet to continue our 
discussion on Afghanistan, but I would be remiss if I didn't 
welcome back our ranking member to our ranks and we look 
forward to continued work with him.
    And, Duncan Hunter, you have our friendship and our 
admiration, and we thank you for being back with us today.
    Mr. Hunter. Mr. Chairman, it is good to be back at my day 
job.
    The Chairman. We thank you very much for your 
contributions, and we know they will continue.
    We have an exceptionally qualified panel of experts on 
Afghanistan today. We welcome Lieutenant General David Barno, 
who is now with the National Defense University; Ambassador 
Karl Inderfurth, with the George Washington University; and Dr. 
Barnett Rubin, New York University.
    We really appreciate your being with us. This is a very 
important subject and a very important hearing.
    Recently, our committee held a hearing with Secretary Gates 
and Admiral Mullen on this same subject matter. And in his 
opening testimony, Admiral Mullen emphasized that our main 
focus militarily in the region of the world right now is 
rightly and firmly in Iraq. That is his quotes. And he said it 
is simply a matter of resource and capacity.
    ``In Afghanistan,'' he said, ``we do what we can. In Iraq, 
we do what we must.'' And it gave me some trouble, and I 
believe that we currently risk a strategic failure in 
Afghanistan, that we must do what it takes to avoid a 
disastrous outcome.
    We want to be discussing this with you gentlemen this 
morning, and we must reprioritize and shift needed resources 
from Iraq to Afghanistan. In my opinion, we must once again 
make Afghanistan the central focus on the war against 
terrorism.
    The President's recent decision to deploy additional troops 
to Afghanistan this spring is encouraging. Some 3,200 Marines 
will help train the Afghan national security forces as part of 
Operation Enduring Freedom (OEF) and, also, strengthen the 
North Atlantic Treaty Organization (NATO)-led international 
security assistance force (ISAF).
    However, this deployment is largely a short-term effort to 
fill the gap in NATO requirements which remain unfilled by our 
allies. It falls far short of the long-term strategy that is 
necessarily for lasting success in that country. And it appears 
there will still be a significant shortage of trainers and 
mentors for the Afghan national security forces.
    At the same time, there are predictions of explosive growth 
in Afghanistan's poppy fields this year. Economic development 
continues to lag. Official corruption is still widespread. The 
authority of the central government remains limited. And 
terrorist safe havens in Pakistan continue to thrive, at a time 
when internal instability in that country has been on the rise.
    Challenges in all these areas contributed to a record level 
of violence in Afghanistan last year. If not handled more 
effectively, I am afraid the security situation in Afghanistan 
will continue to deteriorate.
    Be clear, there have been some truly impressive gains made 
since 2001. However, any gains could quickly vanish if we don't 
capitalize on them.
    While our NATO allies and our partners must certainly do 
more, the U.S. must lead by example. We cannot expect our 
allies to step up if the United States itself does not 
demonstrate a strong commitment to the success of the 
Afghanistan mission.
    The U.S. effort needs to be commensurate with the 
importance of our goal to ensure that the Taliban and al Qaeda 
in Afghanistan are destroyed for good and Afghanistan will 
never again become a safe harbor for terrorists.
    Gentlemen, we look forward to your testimony. This could 
very well be one of the most important hearings of the year and 
we are anxious to hear what you have to say.
    We must do our best to make things better and to make 
things successful in Afghanistan. We need to hear your thoughts 
on that.
    Ranking Member Duncan Hunter, welcome back.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman. And, Mr. Chairman, 
thank you for holding this very, very critical hearing. This is 
an area that you have focused on for an extended period of 
time, and lots of other members of this committee, and one 
which is becoming increasingly crucial to the American mission.
    This hearing builds upon testimony that this committee 
received from Secretary of Defense Robert Gates and Chairman of 
the Joint Chiefs of Staff Admiral Mullen last month, and it is 
especially timely considering the President's recent decision 
to deploy 3,200 U.S. Marines to Afghanistan to support 
counterinsurgency operations and train the Afghan police and 
army.
    I would like to recognize our witnesses, who each bring a 
unique perspective to today's hearing. So, gentlemen, your 
testimony offers an important outside assessment of the 
security challenges and opportunities facing Afghanistan.
    Now, in 2001, the United States and our allies from around 
the globe came together under Operation Enduring Freedom to 
take the fight to our common terrorist enemy and, in 
particular, deny al Qaeda safe haven.
    Today, in Afghanistan, approximately 11,000 U.S. military 
personnel continue to serve under the Operation Enduring 
Freedom banner and are responsible for conducting special ops 
missions and training the Afghan military.
    Additionally, 15,000 U.S. troops serve as part of the 
International Security Assistance Force, ISAF, which is a NATO-
led coalition of 41,000 forces from nearly 40 countries, 
responsible for conducting nationwide security and stability 
operations.
    And, Mr. Chairman, those figures are important because they 
reflect that even with the operations in Iraq and the continued 
leadership, world leadership of the United States in the war 
against terrorists, even with those burdens, we are supplying 
roughly half the forces of the free world in the Afghanistan 
operation, and, personally, I think that reflects an anemic 
response from America's allies.
    Over the last six years, our collective efforts under OEF 
and ISAF, along with those of the Afghan people, have produced 
tangible results. A nation that suffered from war and economic 
deprivation for nearly three decades now has a democratically 
elected government in which women are represented.
    Better access to health care is now there. Signs of 
improved infrastructure, such as newly constructed roads and 
education facilities are manifesting themselves. And, today, I 
am interested in hearing your thoughts on how we sustain and 
expand these gains.
    A stable and modern Afghanistan is important to the Afghan 
people, America and the international community, but achieving 
that end state has been hampered by distinct challenges.
    During the last year, the security situation has declined, 
particularly in the south. The insurgents have altered their 
tactics, increasing their use of suicide and roadside bombings. 
Al Qaeda and Taliban fighters continue to find sanctuary in the 
hostile terrain along the Pakistan-Afghanistan border, allowing 
for cross-border infiltration.
    Poppy cultivation in Afghanistan continues to rise, 
reaching its highest levels last year. So I am also interested 
in your perspectives and recommendations to improve the 
international effort to mitigate these challenges.
    Also, General Barno, given your experience serving as the 
commander of the U.S. and coalition forces in Afghanistan 
between 2003 and 2005, and I am interested in your thoughts 
regarding the evolution of counterinsurgency operations, 
particularly in eastern and southern Afghanistan.
    Some consider U.S. troops to be capable of conducting 
counterinsurgency, while NATO forces are not capable of these 
very same operations. It is my understanding, however, that 
U.S. conventional troops, such as U.S. Marines in Al Anbar 
province, hone their counterinsurgency skills by executing, by 
doing, by what you might call on-the-job training.
    And, therefore, it is my belief that our NATO and coalition 
partners must not shy away from engaging in the 
counterinsurgency fight. In fact, joining the counterinsurgency 
battle is the only way for NATO to build this important 
capability.
    Finally, I want to express my strong concern about the 
apparent unwillingness that I mentioned of some of our NATO 
allies to uphold or increase their military commitments to the 
NATO-led ISAF mission. Also, some allies restrict their forces 
from certain geographic and operational missions in 
Afghanistan, effectively hamstringing our commanders on the 
ground and forcing them to waste time and energy in developing 
cumbersome workarounds in order to get the job done.
    Our 25 NATO partners must seriously consider the possible 
adverse impacts of heavily caveated commitments. Also, I note 
that two-thirds of our allies do not commit two percent of 
their gross domestic products to defense, and two percent is 
supposed to be the minimum level of defense spending for NATO 
membership.
    So it seems to be that not meeting this minimum requirement 
and not providing sufficient or sufficiently flexible forces to 
Afghanistan should have some consequences for these nations.
    NATO, as an alliance, is capable of doing more and should 
be doing more. Toward that end, I recently wrote a letter to 
all 25 ministers of defense, encouraging them to identify and 
provide the maximum number of troops, military resources, and 
civilian support to Afghanistan or risk losing access to 
defense contracts offered by U.S. taxpayers.
    It is my hope that our partners will step up to the task at 
hand.
    In closing, success in Afghanistan, defined as a stable and 
moderate nation, is vital for Afghanistan and for the common 
security interests of the U.S. and our allies. NATO nations and 
our other international partners should join the U.S. and make 
every effort practical to give the people of Afghanistan the 
foundation and tools they need to maintain security and 
stability.
    And, last, Mr. Chairman, to go back to this fact that while 
NATO allies seem to have a problem in cumulatively all together 
coming up with enough forces to meet that 3,000 troop 
requirement in southern Afghanistan, they have no problem in 
marshaling their lobbyists to come over here and try to get 
pieces of American defense contracts that otherwise would be 
undertaken by American workers, the very workers who send on 
the average of 1,000 bucks a year out of their paychecks in 
taxes for the defense function of government that supports the 
defense of the free world.
    And, you know, gentlemen, we continue to hear the term 
``interoperability'' as a compelling reason for allowing our 
NATO allies to have big pieces of the U.S. defense budget, so 
that we can interoperate. And, yet, when we have an opportunity 
to interoperate, it appears that sending troops becomes mission 
impossible for a number of the NATO allies.
    So I would like to have you comment on that, whether this 
interoperability is really something that exists or simply 
exists in rhetoric as a prelude to the acquisition of defense 
contractors by our NATO allies.
    Thank you, Mr. Chairman. A very timely hearing and I look 
forward to the testimony.
    The Chairman. Thank you so much.
    At this moment, I submit for the hearing record a recent 
letter, dated January 16, from Dr. Anthony Cordesman, with the 
Center for Strategic and International Studies, to our 
committee on the subject presently before us.
    Without objection, that will be made part of the record.
    [The information referred to can be found in the Appendix 
on page 97.]
    The Chairman. Before calling and starting with General 
Barno, I must express my deep concern, and I hope you gentlemen 
will address it. Should there be a failure in Afghanistan, 
heaven forbid, but should there be a failure in Afghanistan, 
and it be apparent that it be NATO's fault or lack of stepping 
up to the plate, what happens to NATO thereafter?
    I have had various conversations with various people, 
including our counterparts in Great Britain, and I think they 
have the same concern that I have. And if you would hopefully 
touch upon that, each of you, briefly, I would appreciate it.
    General Barno, we will begin with you. And we thank each of 
you for taking the time and being with us. You are the experts 
in this country on that country. So we thank you.
    General.

  STATEMENT OF LT. GEN. DAVID W. BARNO, USA (RET.), DIRECTOR, 
  NEAR EAST SOUTH ASIA CENTER FOR STRATEGIC STUDIES, NATIONAL 
                       DEFENSE UNIVERSITY

    General Barno. Thank you, Mr. Chairman. Chairman Skelton, 
Ranking Member Mr. Hunter, and members of the Armed Services 
Committee, thanks for your very kind invitation to speak today 
on a subject close to my heart--our efforts in Afghanistan.
    I would note to the committee up front that I remain a 
member today of the U.S. Defense Department in my capacity as 
the director of the Near East and South Asia Center for 
Strategic Studies at our National Defense University here in 
Washington, but my views that I present today are my own.
    After 19 months of service in Afghanistan, I remain 
crucially involved, professionally and personally, in working 
to ensure the success of our long-term undertaking there.
    In my judgment, our efforts today in Afghanistan stand at a 
strategic fork in the road. We have important choices to make 
this year, choices which will ultimately determine the outcome 
of this noble and worthy mission.
    I should also note a few brief comparisons between Iraq and 
Afghanistan for the committee. Afghanistan is a landlocked, 
mountainous agricultural country, with less than 30 percent of 
its population living in urban areas. It is among the world's 
poorest countries, with few to no natural resources.
    However, in size, it is nearly 50 percent larger in land 
mass than Iraq, 647,000 square kilometers to Iraq's 437,000. 
And Afghanistan also contains 4 million more people than Iraq, 
with a population of 31 million to Iraq's 27 million.
    That is important as we look at our relative commitment in 
each of these countries and the size and the demands of the 
geography and the population involved in each place. Clearly, 
Afghanistan, a larger country, larger population.
    We entered Afghanistan in 2001 in the wake of the 9/11 
attacks to destroy al Qaeda, to overthrow their Taliban allies, 
and to help Afghanistan return to the community of nations as a 
democratic state.
    We remain in Afghanistan today to secure these goals, but, 
also, in recognition of the strategic importance of the region 
centered around Afghanistan. Our presence there, with our NATO 
allies, forms a vitally important and stabilizing influence on 
a volatile part of the world.
    Afghanistan stands at the center of an immensely important 
strategic region. To the [east] is Pakistan, the world's second 
largest Muslim state and one possibly armed with several dozen 
nuclear weapons. Its current crisis should give us pause as we 
reassess our mission in Afghanistan, a mission with 
implications that extend well beyond Afghanistan's borders.
    On the northeast border of Afghanistan is China, a power 
with growing regional energy and transportation interests.
    To the north of Afghanistan lie three former republics of 
the Soviet Union, Uzbekistan, Tajikistan and Turkmenistan, 
nations always feeling the pull north from Russia and east from 
China. And, finally, to the west, Iran, a growing regional 
power whose intentions remain suspect.
    Mr. Chairman, this tour of the map sheet around Afghanistan 
clearly paints the picture of a region with major strategic 
importance to the United States and one in which we must 
continue to exert powerful and sustained American leadership.
    [The information referred to can be found in the Appendix 
on page 107.]
    General Barno. Since your visit to me in Afghanistan, Mr. 
Chairman, in 2004, much has changed there. Security incidents, 
defined as reported acts of violence, nationwide totaled 900 in 
2004 at the time of your visit. Last year, in 2007, they 
totaled 8,950 across Afghanistan.
    Roadside bombs in 2004 amounted to 325. Last year, 1,469. 
Suicide bombings, a decidedly non-Afghan phenomenon, totaled 
three in 2004. Last year, they exceeded 130, a deadly new 
tactic which has been imported from Iraq.
    Total bombs dropped by U.S. and coalition air forces in 
Afghanistan in 2004 totaled only 86. Last year in Afghanistan, 
NATO air power, primarily American forces, dropped 3,572 bombs 
in the country, noteworthy in a war that all of us commonly 
define now as a complex counterinsurgency fight.
    Finally, as you noted, Mr. Chairman, poppy production is on 
the rise. In 2004, poppy production totaled 131,000 hectares, 
while dropping to 104,000 in 2005, ballooned once again in 2007 
to a new record of 193,000 hectares under cultivation.
    These selected trend lines, although certainly not a 
comprehensive depiction of all the sectors in Afghanistan, are 
certainly cause for concern.
    On the military side of the ledger, we have also witnessed 
major changes in our approach since your visit in 2004. During 
2004, our military forces under U.S. coalition command totaled 
nearly 20,000, including typically about 2,000 coalition 
soldiers from among our friends around the world, operating 
under an Operation Enduring Freedom mandate, generally with 
robust counterinsurgency rules of engagement.
    NATO back in 2004 comprised only about 7,000 troops, mostly 
on Kabul and in the northeastern corner of Afghanistan, and 
those forces were primarily engaged in peacekeeping and 
reconstruction tasks.
    The combined total numbers of international forces in 2004, 
U.S., coalition and NATO, amounted to about 26,000 all told. 
Today, international forces in Afghanistan total just over 
50,000, with another 3,200 American Marines pledged to join the 
effort soon.
    In the command and control arena, the U.S. three star 
headquarters, Mr. Chairman, that you visited in Kabul, a 
headquarters which built a comprehensive civil military 
counterinsurgency plan that was tightly integrated with our 
U.S. embassy there, led by Ambassador Khalilzad, that 
headquarters has now been disestablished.
    In late 2006, NATO assumed overall military command in 
Afghanistan. Our senior U.S. military headquarters today is now 
a two star organization and it is located once again at Bagram 
Airbase, a 90-minute drive north of Kabul.
    Its geographic responsibility under NATO comprises only 
Regional Command East, territory representing less than one-
quarter of that same headquarters' responsibilities in 2004.
    The enemy in Afghanistan, a collection of al Qaeda, 
Taliban, Hezbi Islami, and foreign fighters, is unquestionably 
a much stronger force than the enemy we faced in 2004. There 
are many reasons for this change, but I am afraid it is an 
undeniable fact. And, of course, this enemy extends in many 
ways and regenerates itself within the tribal areas of 
Pakistan.
    Mr. Chairman, in the face of these admittedly incomplete, 
but worrisome trends, I can offer one equation--success in 
Afghanistan--and I absolutely believe success is attainable in 
Afghanistan. Success in Afghanistan equals leadership plus 
strategy plus resources.
    Only if we fully commit our best efforts in all three 
areas--leadership, strategy and resources--and relentlessly 
integrate these three internally within the U.S. effort and 
externally within the international effort will we be able to 
seize the opportunities available to reverse these troubling 
trends.
    Only if we make this a regional effort, most especially 
connecting Pakistan and Afghanistan in one dimension, will we 
be able to once again move in a positive direction. And only if 
we objectively and dispassionately examine both where we have 
been and where we are today will we be able to correctly shape 
where we must go.
    If we fail to do so, we face great risks, in my estimation, 
to our prospects for success.
    I look forward to being able to expand upon some possible 
further prescriptions during your questions.
    Thank you very much.
    [The prepared statement of General Barno can be found in 
the Appendix on page 51.]
    The Chairman. Thank you, General.
    Ambassador Inderfurth.

  STATEMENT OF AMBASSADOR KARL F. INDERFURTH, JOHN O. RANKIN 
  PROFESSOR OF THE PRACTICE OF INTERNATIONAL AFFAIRS, GEORGE 
                     WASHINGTON UNIVERSITY

    Ambassador Inderfurth. Thank you very much. Chairman 
Skelton, Ranking Member Hunter, members of the committee, thank 
you for inviting me to take part in this assessment of 
Afghanistan and especially the opportunity to express my views 
on the subject of the way ahead.
    I would like to begin by commending the committee for 
taking up Afghanistan as one of its first items of business at 
the new session. Not only does this reinforce the committee's 
determination that Afghanistan not become the forgotten war, 
but I believe it sends a signal to the Bush Administration to 
put Afghanistan and, I would add, Pakistan at the top of this 
country's security agenda, where they should have been for the 
past six years.
    Unfortunately, Afghanistan has taken a back seat to U.S. 
military involvement in Iraq and still does. As Joint Chiefs of 
Staff (JCS) Chairman Mullen told this committee, ``In 
Afghanistan, we do what we can. In Iraq, we do what we must.''
    Mr. Chairman and members of the committee, I believe some 
way must be found to deal with this perpetual problem of 
Afghanistan being overshadowed by the Iraq war. I hope this 
committee will do what it can and must to rectify this 
situation.
    Mr. Chairman, we have been asked to provide our views on a 
number of critical issues facing Afghanistan today. I have done 
so in my written testimony, which I am submitting for the 
record. But in my brief oral statement, I would like to call 
attention to just one--the challenge Afghanistan faces from the 
use of Pakistan as a safe haven for the Taliban and al Qaeda 
and the rising level of violence and political instability, as 
evidenced by the recent assassination of Benazir Bhutto.
    Afghanistan and Pakistan are joined at the hip. There can 
be no successful outcome for Afghanistan if Pakistan is not a 
part of the solution. Engaging Pakistan is one of the crucial 
elements of success in Afghanistan.
    So what can the U.S. and the international community do 
about this fundamental issue? First, the future stability of 
both Afghanistan and Pakistan depends on the development of an 
effective joint strategy to counter the Taliban-al Qaeda 
sanctuary in Pakistan's tribal border areas and the expanding 
extremist insurgency in other parts of Pakistan.
    This means working with Pakistan to root out Taliban 
ideology from its own society and shut down its extremist 
madrasahs, the religious schools, and training camps that fuel 
the Taliban insurgency and cross-border activities.
    Countering cross-border infiltration is critical. The 
trilateral Afghanistan-Pakistan-NATO military commission is an 
important mechanism in this regard. So is the strengthening of 
the U.S. military presence along the Afghan side of the border.
    There is also a need to reduce the level of mistrust that 
exists between the U.S. and Pakistani military at the 
operational level. The appointment of a U.S. special envoy to 
work with Afghanistan and Pakistan could contribute to tackling 
these issues.
    Washington also needs to convince Islamabad to work more 
closely in joint counterterrorism operations that can bring 
U.S. resources, including intelligence and military assets to 
bear in the border areas.
    But I want to caution here that any large-scale U.S. troop 
intervention in Pakistan's tribal areas would be disastrous for 
the Pakistani state and for U.S. interests and would not 
provide a lasting solution to the problem.
    A more effective strategy involves working with Pakistan's 
military to integrate these areas into the Pakistani political 
system and, once they are secure, provide substantial 
assistance to build up the economy and social infrastructure, 
something to which we should contribute, along with the World 
Bank and others.
    Second, the key to achieving the goal of a stable and 
peaceful Afghanistan is to improve the longstanding troubled 
relationship between Kabul and Islamabad, including mutual 
recognition of their still disputed unresolved border. Again, a 
special U.S. envoy could be helpful in this regard.
    Third, over the longer term, the United Nations should 
convene a high level international conference attended by all 
of Afghanistan's regional neighbors and other concerned major 
powers. The goal would be a multilateral accord to affirm 
Afghanistan's standing as a permanently neutral state, like the 
Congress establishes for Switzerland.
    Such an agreement would provide an international foundation 
for the eventual withdrawal of U.S. and NATO military forces 
from a stable and secure Afghanistan.
    Mr. Chairman, I would like to conclude by offering one 
final recommendation for those of you who have not already done 
so, and that is to see ``Charlie Wilson's War,'' the film. I am 
sure many members of this committee already know this story, as 
well as your former House colleague, Charlie Wilson.
    The film is certainly entertaining, but it also contains, 
at the end, a very serious takeaway message. Simply stated, 
after spending hundreds of millions of dollars to help the 
Afghan Mujahideen Freedom Fighters defeat the Soviets and the 
Red Army, we walked away from Afghanistan after the Russians 
withdrew their forces in 1989.
    We left it to Afghanistan and, I would add, Pakistan to 
pick up the pieces after 10 years of brutal warfare. Funding 
and high level U.S. attention to help the Afghans face their 
new challenges of security and rebuilding evaporated.
    We all know what happened after that, up to and including 
9/11. So this is my point and this is the takeaway message from 
the movie. We still have time to get Charlie Wilson's War 
right, for to have, as they say, a happy ending.
    We have been given a second chance to do the right thing 
for Afghanistan and for the United States. I sincerely hope we 
don't miss this opportunity. This committee has a major role in 
assuring that we do not.
    Of one thing I am certain--without a genuine and long-term 
commitment on the part of the United States and the 
international community, Afghanistan will fail again.
    Thank you very much.
    [The prepared statement of Ambassador Inderfurth can be 
found in the Appendix on page 62.]
    The Chairman. Thank you, Mr. Ambassador.
    Dr. Rubin.

STATEMENT OF DR. BARNETT R. RUBIN, DIRECTOR OF STUDIES, CENTER 
       ON INTERNATIONAL COOPERATION, NEW YORK UNIVERSITY

    Dr. Rubin. Thank you very much, Mr. Chairman, Mr. Ranking 
Member. Thank you for this invitation.
    Actually, I believe the first time I visited the Rayburn 
Building was sometime more than 20 years ago when I came here 
to see Charlie Wilson during the first part of this problem.
    I very much appreciate the invitation, partly because even 
before I knew of this hearing, I had noted the testimony of 
Admiral Mullen and commented about it in my Web blog, and I 
believe that the Admiral was correctly stating the situation as 
it is, not necessarily as he wishes it were.
    That is that from September 12, 2001, the Administration 
did not put a priority on Afghanistan, still does not place a 
priority on Afghanistan, and the invasion of Iraq has done 
incalculable harm to our ability to succeed in Afghanistan.
    I won't go into that, I will try to look forward, but that 
is the reality that we are living with and there is no simple 
way out of it.
    Now, I think that General Barno made an important point, 
which is the need for a multifaceted, focused strategy which 
brings together military, political and economic elements. I 
will talk about that a little more generally, but, first, I 
want to tell you--just mention something very specific that has 
recently come to my attention and which I think is indicative 
of the problem we have, and the people affected may be in this 
room. I am not sure.
    There are some Afghan-American investors and other 
specialists who have developed a program for the manufacture of 
textiles, oilseeds and other job creation industries in 
southern Afghanistan, which is the area with the highest level 
of poppy production and the most Taliban activity.
    After two years of trying to get it funded through U.S. 
Agency for International Development (USAID), they were told 
that it could not be funded because it would violate the 
Bumpers Amendment, which is an amendment to the Foreign 
Assistance Act (FAA) prohibiting USAID from funding anything 
that might compete with the U.S. and world markets.
    I think this is a remarkable example of the failure to 
align our tools with our strategy and I hope that Congress will 
look into it. I do not believe that was the intention of 
Senator Bumpers at the time.
    Now, first, why is this so important? There is a common 
misconception that both of my colleagues have addressed. I want 
to make it even more specific. The misconception is to think 
that what we are talking about is, one, a war and, two, in 
Afghanistan. That is not what we are talking about.
    What we are talking about is a political, economic and 
military struggle in Pakistan and Afghanistan. I believe in one 
of his recent writings, General Barno has said the military 
part of it is about 20 percent.
    Therefore, one of the most important things that we can do 
is to align the international effort, and it is a fully 
international effort under U.N. resolutions, with the U.N. 
mission, not just the U.S. and NATO, every other international 
organization, as well, with the political and economic--align 
the political and economic parts of it with the military 
effort.
    Now, there is one proposal I would just address now, which 
is the proposal to appoint a special international coordinator. 
The reason that this is potentially important, though risky, is 
that the center of gravity of this struggle specifically is the 
relationship between the Afghan people and their government, on 
the one hand, and the Pakistani people and their government, on 
the other hand.
    That is, in a sense, the strategic goal of this struggle is 
to help those people build states that can provide security. To 
do that, we have a problem that while we have military there 
that can clear the enemy out of areas, it is the state of 
Pakistan and Afghanistan that have to hold those areas, and we 
have underinvested in police, the justice system and the 
administration, which is what can hold those areas afterwards.
    We have over-invested even, in a way, in elections rather 
than in police, justice and administration, which are the key.
    The way that we deliver aid in Afghanistan and many other 
places actually undermines that effort, because it puts the 
money largely outside of government channels and forces the 
government to divert a lot of its energy to responding to 60 
different donors.
    The coordinator could be important, particularly if, one, 
his main function is not to pressure the Afghan government, but 
coordinating the international actors and, second, if, to do 
so, he has some measure of budgetary authority over all of the 
international aid and if more of it were consolidated into a 
common fund.
    That is an important point for Congress, because often in 
discussions with the Administration, I am told that Congress 
will not permit the Administration to provide the aid in a more 
coordinated way, and I wish you would look into that.
    On Pakistan, I will just say a few words. As I say, it is a 
two-nation struggle. Taliban and al Qaeda are based and 
centered in Pakistan, not in Afghanistan, though they conduct 
operations in Afghanistan. They are now operating militarily 
not only in the tribal agencies of Pakistan, but in the settled 
areas of Pakistan, and have struck at the very heart of the 
Pakistani political system.
    There is no way to succeed in Pakistan and Afghanistan 
without a partner in Pakistan whose actions in alliance with us 
are also supported by the main political forces in Pakistan. 
Unfortunately, today they are not, because the military regime 
of General Musharraf lacks legitimacy in Pakistan today.
    And a key question for the future of our effort is whether 
there will be an election in Pakistan whose outcome the people 
of Pakistan will accept as legitimate and whether those who win 
those elections will actually be able to govern rather than 
being subject to restrictions by the Pakistan military, as has 
been the case in the past.
    That will be the condition for their ability to extend the 
control of the Pakistani state further into those areas which 
are now in the tribal agencies and out of its effective 
governance, which is the key measure that we need in order to 
secure that border area.
    Finally, on the opium question, there was an article by 
Richard Holbrooke in this morning's ``Washington Post'' which 
mentioned me and I endorse the point of view in that article. 
Opium drug production is a tremendous problem in Afghanistan, 
but it is the result of insecurity. It is not the cause.
    It has migrated to those areas along the Pakistan border 
where the Taliban are most active.
    Second, the way to combat it in a way that is compatible 
with our goals is not crop eradication. The problem in 
Afghanistan is not the farmers earning money. The problem is 
the 80 percent of the drug economy that goes to dealers, 
traffickers, processors, terrorists, Taliban and corruption.
    We need in our drug policy to win the support of the people 
of Afghanistan, including farmers who are now growing poppy, 
for their government and for the effort that we are making 
together with their government in order to break their links 
with the traffickers and others who are profiting from the drug 
economy.
    And if we proceed down the road we are now going, which is 
to pressure the Afghan government to undertake a much higher 
level of eradication of the crop, that is an attack on farmers' 
livelihood, rather than addressing the roots of the problem in 
insecurity and corruption, I am afraid that we will--rather, 
integrate counter-narcotics with counterinsurgency, we will 
make counter-narcotics into a recruiter for the insurgency.
    Done properly, counter-narcotics will give Afghans what 
they have been demanding--more security, more development, the 
removal of corrupt power-holders. But done improperly, I am 
afraid it will contribute to many of those negative trends 
which were summarized by General Barno and also by Mr. 
Cordesman in his testimony.
    Thank you.
    [The prepared statement of Dr. Rubin can be found in the 
Appendix on page 78.]
    The Chairman. Dr. Rubin, thank you very much. And, 
gentlemen, thank you.
    I would like to ask just one question before I call on our 
ranking member and the other members.
    General Barno, it is in regard to your recommendation about 
a three star headquarters being reestablished, American 
headquarters being reestablished.
    How would we go about that? How would that be integrated 
into the NATO structure, if at all? We had it, it seemed to 
work. And if you had the magic wand, how would you reestablish 
that and make it a success?
    General Barno. Mr. Chairman, let me answer that by 
describing what I thought was probably the best profile of 
comparative advantages, if you will, between NATO and the U.S. 
during the time I was there, and that occurred right before I 
left in the spring of 2005.
    At that time, NATO was going through its various phases of 
expansion around the country and they had gotten to what they 
called phase two and the phase two expansion, the picture 
looked like NATO having ownership of the northern half of 
Afghanistan and the U.S. and the coalition having ownership of 
the southern half of Afghanistan.
    I think a version of that could be looked at today, 
although I still subscribe to the idea that NATO has overall 
ownership here in Afghanistan.
    In this model, in 2005, NATO played to its comparative 
advantage. It played to its ability to do stability operations 
or peacekeeping operations in the north, which was a more 
benign area. The U.S. and the coalition played to its 
comparative advantage, which was robust counterinsurgency 
operations across the southern half of Afghanistan, which was 
the contested area.
    And so I think in each case, the alliance and the U.S. 
elements within were playing to what each of them did best. The 
headquarters itself in Kabul had the great strength, the U.S. 
three star headquarters, of being connected to the American 
embassy there in a way that was the engine of the overall 
integrated effort, both the military and embassy working hand 
in glove.
    I went to meetings every morning with Ambassador Khalilzad 
there. I lived on the embassy compound. And we had an 
integrated political, military, economic, social, security 
strategy for Afghanistan. And that doesn't exist today, of 
course, because there is no American headquarters with the same 
functionality for the embassy to link into.
    So I think that as I look backwards in time, that was a 
picture that was about right, in my judgment. It produced a lot 
of capability that kept each of the different elements in areas 
where they were very effective, NATO in the north in stability 
operations, coalition, Americans in the south focused on 
counterinsurgency.
    I think today, if you were to consider reestablishing that, 
physically, I think, there needs to be an American headquarters 
in Kabul that connects into the embassy and potentially 
connects into the Afghan government and the other elements 
going on there to help be an engine within the international 
effort.
    I think our ambassador and our senior U.S. military 
commander need to be the engine that helps the international 
effort be effective. And today, if we do have a special envoy 
being appointed, Paddy Ashdown or someone else, he may be the 
senior civil element in the 80 percent international. Clearly, 
the ISAF commander will be the senior military commander.
    But beneath them, I think there is a layer that ought to be 
an American engine helping to drive that forward. And, again, 
just looking backwards, without trying to prognosticate to the 
future, I think the picture I saw that worked the best was that 
picture at about phase two, with NATO focused on the north, 
perhaps with a deputy looking at that, U.S., perhaps American 
deputy with a headquarters focused on the south.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony. I think that some 
of the recommendations that you have made, especially, Mr. 
Ambassador, that we must try to fix Pakistan in some way in 
terms of bringing that border area, that no man's land into an 
integration with the mainstream in Pakistan is a long, long 
bridge to cross.
    I mean, you have got a remote area divided by politics, by 
lots of tribal crosscurrents and by massive geographical 
challenges. And the idea, also, of trying to seal up that 
porous border with those rugged mountain ranges and canyons, 
mountain ranges up to 18-19,000 feet, all of the physical 
challenges that that brings, I think that is a very, very 
difficult thing to accomplish.
    It is easier to say than it is to accomplish. And so the 
borderlands is not an easy fix. You have got 100,000 troops 
there right now, including, as I understand, the division that 
they moved over from the Indian border, which is supposed to 
have some level of competency.
    I guess, General Barno, for you, the one question I would 
like to ask is this: what is the pressure point that we have 
been trying to use to move the NATO allies, the 25 recalcitrant 
allies, let us say maybe 20 recalcitrant allies, with a few 
that are fairly strong, to participate in this operation, 
because obviously the decision to move the 3,000 Marines into 
the southern operations is really basically a result of a 
failure to bring even an anemic response from the allies in 
participating there.
    So when our leadership sits down with the NATO defense 
ministers, what is the point of leverage? Is this simply 
jawboning or a few speeches in between the courses?
    I get to the point where I think that the NATO boys are 
spending more money on catering than they are on military 
operations in Afghanistan. But have we really been exercising 
any real attempts at leverage in terms of bringing about 
participation?
    General Barno. Well, sir, I am not sure I have got a good 
answer for that. I know that as I have watched the reporting on 
our interactions with NATO over the last six months, and 
Secretary Gates, in particular, and his various visits there, I 
think our outlook publicly and our rhetoric has changed a bit 
and I think it has changed, to some degree, in recognition that 
there is a limited amount of political will within NATO to do 
more, certainly in the south.
    I think as I traveled around Europe last year, what I heard 
in visiting various NATO countries was that the populations in 
those countries, in their own mind and in the minds of their 
government, had not necessarily signed up to go to Afghanistan 
to fight a counterinsurgency war against the Taliban.
    In their mind and I think their governments', to some 
degree, in many cases, viewed that they were going to 
Afghanistan to do a peacekeeping operation of sorts, and that 
was the degree of political support they had.
    Now, that is untrue of the people fighting in the south, 
clearly, in terms of the British, the Canadians, the Dutch, but 
many of the nations that are in the north, they are in the 
north because their populations are, it would appear, only 
willing to be in Afghanistan to do something other than combat 
operations.
    So I think it would take a fairly significant change in 
their perceptions about the purpose of NATO in Afghanistan, in 
the case of these members, the purpose of those NATO members in 
Afghanistan to take on the combat mantle.
    Several nations have done that. We should be very impressed 
by what, I think, the casualties certainly in the fighting that 
the British have been involved with, that the Canadians have 
been involved with, but there are a number of other NATO 
nations, as you well know, that have not been willing to go to 
the south and, in my judgment, it appears it is because their 
populations are not necessarily willing to do that.
    Mr. Hunter. And, General, don't we have a leadership 
problem? If you have got--if, in fact, we are in this global 
war against the terrorists and we have a major forum for that 
and the center of that struggle is Afghanistan, the idea that 
we are not able to impress upon the leaders of the NATO 
membership that this is, in fact, a war of enormous consequence 
to them, it is kind of remarkable.
    Are we working this thing at the high level to show them 
the big picture that we feel that we understand?
    General Barno. I can't speak personally for the degree to 
which we are doing that. What I read is clearly that that is a 
major effort the U.S. is undertaking.
    But I think that those countries themselves, the leadership 
in those countries have a responsibility to make that case to 
their people. Their national leaders have got to make the 
argument why the Afghanistan effort is an important strategic 
arena to be involved with and why there is an extraordinary 
threat that is emanating from there.
    Mr. Hunter. Okay. I guess bottom line, then--and, Mr. 
Chairman, thank you for the time here. Bottom line, then, do 
you think we are making the strong case to the NATO leadership? 
Do you think U.S. leadership is making the strong case to the 
national leadership of the NATO member?
    General Barno. I think we are, yes.
    Dr. Rubin. May I comment?
    The Chairman. Yes, please, Doctor.
    Dr. Rubin. I believe it is fundamentally mistaken to blame 
the NATO allies for what is going on, for the problems in 
Afghanistan.
    Mr. Hunter. Well, Doctor, hold on a second. I am not 
blaming them for what is going on in Afghanistan. I am blaming 
them for not being able, among 25 member nations, to comprise a 
force of 3,000 required troops in the southern piece. That is 
roughly 100 people apiece.
    And the idea that the NATO membership can't come up with 
100 soldiers apiece is quite remarkable.
    Dr. Rubin. Well, first, I just want to say that Canada's 
casualties in Afghanistan are proportionately higher than 
America's casualties in Iraq.
    Second, there is, indeed, as you say, a failure of the----
    Mr. Hunter. And Canada is doing a good job in the south.
    Dr. Rubin. Yes.
    Mr. Hunter. But there are only a few people in the south 
working, as you know.
    Dr. Rubin. But the failure of leadership, I am afraid, is 
in Washington. I myself have gone to many of the NATO member 
countries trying to argue with the members of parliament and so 
on that they should increase their commitment to this important 
operation, which I have been working on myself.
    I can tell you people in other countries around the world 
do not want to cooperate with this Administration and this 
Administration has not made the case for American leadership, 
and that is one of the main problems that we are facing in 
Afghanistan.
    And there is a limit to how much you get by bullying and 
threatening them about defense contracts.
    Ambassador Inderfurth. Mr. Chairman, may I also----
    The Chairman. Yes, Mr. Ambassador.
    Ambassador Inderfurth [continuing]. Inject a comment, 
perhaps a diplomatic comment into this discussion?
    In my written testimony, I have attached a recent poll, in 
June of 2007, by the Pew Global Attitude Survey, which shows 
you the problem we are facing, and that is the attitudes of the 
publics of the countries that we are working with about whether 
to keep troops there or to take them out.
    [The information referred to can be found in the Appendix 
beginning on page 70.]
    Ambassador Inderfurth. And only two countries listed, and 
you can see this in the testimony, in only two countries is 
there a majority of those of the publics saying keep the troops 
there, and that is the U.S. and the U.K.
    So there is a public support problem that all of these 
nations have to address.
    I am a little bit encouraged by the fact that as we are 
approaching a very important NATO summit in Budapest in early 
April, that a number of the leaders, world leaders, I think, 
recognize that they have to do more to convince their publics 
that they are in a fight with us and that it is in their 
interest to be there.
    You have had visits to Kabul in the last several--at the 
end of December by Gordon Brown from the United Kingdom (U.K.), 
France's president, Sarkozy, Australia's new prime minister, 
Kevin Rudd, Italy's prime minister. Canada has just issued its 
Manley's report.
    I think there is a growing recognition among world leaders 
that they have got to do more to inform their publics about the 
stakes involved in Afghanistan and I think this is leading up 
to a very important summit in April in Budapest.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman. Thank you so much for 
our witnesses that we have today.
    Last week, the Terrorism Subcommittee hosted a briefing 
with special forces who recently returned from a mission in 
Afghanistan.
    The team members stated that the alliance of the locals is 
tied to commerce, basically who is perceived as winning, and I 
think that is human nature. You go with whoever you think that 
is winning the war.
    But they also acknowledged the importance of reconstruction 
on winning the hearts and the minds of the Afghanistan people. 
We know that operations in Iraq are consuming most of the 
resources, equipment, money, and readiness, and the U.S. 
strategy only to do what we can in Afghanistan reminds me of 
the statement that was made some time back by the secretary of 
defense--you go to war with the army you have got, not with the 
army that you want to go with.
    I think that what we are going to have to do is work [it 
out so] that the majority of the resources be committed to 
counterinsurgency or to reconstruction. And I think that one of 
the problems we are having now is that we just don't have 
enough troops.
    I mean, how are we going to be able to do that? And I think 
this is having an impact on readiness, it is having an impact 
on retention and recruitment, because when we send young men 
and women to war, they want to be sure that they have got the 
equipment, their families are taken care of, and I think that 
we are lacking.
    So maybe you can answer that question. Where do we go, 
operations or to reconstruction? Where do we put the money or 
the manpower?
    Ambassador Inderfurth. I don't think there is a choice. I 
think we have to do both. I think we have to do more 
operations. I think that the focus on security is a 
precondition to being able to do reconstruction.
    So security is key. I think that there have been some 
important steps in the right direction of late. I think the 
decision to send in the 3,200 Marines is an important step.
    Secretary Gates, when he was in Kabul, on his last visit, 
said that the U.S. would see an increase in the Afghan national 
army, which is key to success there, from 70 to 80,000, and 
that the U.S. would support that.
    In the past, actually, Secretary Rumsfeld had recommended 
that those numbers be reduced to 50,000. So we are heading in 
the right direction. There has also been a $7.5 billion 
increase in U.S. assistance to Afghan security forces, 
including the police, by the way, which is in need of even 
greater need of support right now than the army. They are in a 
terrible state.
    So security is absolutely essential. But if that doesn't 
also lead the way toward a greater degree of construction, 
reconstruction, you will see in my written testimony that the 
head of the Army Corps of Engineers says there needs to be a 
construction surge in Afghanistan, construction surge. That is 
the right kind of surge right now in Afghanistan.
    And so more money has to go there. Afghanistan has been 
underfunded, undermanned, and given less attention than it has 
needed, and that is one reason that we are in the state we are 
today.
    So I think that it is both security and construction.
    Dr. Rubin. If I could just elaborate a little bit what we 
mean by security. General Barno mentioned that Afghanistan is 
tied for last place as the poorest country in the world. I 
don't know if everyone fully appreciates that.
    It is tied for last place with Burundi and Sierra Leone in 
terms of its income.
    Now, its government is also in last place in terms of the 
amount of taxes that it collects. It has tripled its tax 
collection since this intervention. It now collects five 
percent of the Gross Domestic Product (GDP) in revenue. That 
means it has an extraordinarily weak government, which is not 
even present in most of the territory.
    The most important thing we can do is help Afghans 
strengthen those governmental institutions, the army, for one, 
but equally or even more important, the police, the justice 
system, and the administration. We have lagged behind very 
badly on that.
    Finally, no matter how well we do within Afghanistan 
itself, it will ultimately be a stopgap measure as long as the 
situation in Pakistan continues to deteriorate and the Taliban 
and al Qaeda continue to have their headquarters in Pakistan.
    Mr. Ortiz. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentleman from New York, Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentlemen, welcome.
    Dr. Rubin, I couldn't agree more with your very last 
statement about the realities, and it is been endorsed in the 
comments of your two colleagues, about the need to integrate 
our approach in Afghanistan with the problems we now face in 
Pakistan.
    Mr. Ambassador, you mentioned that you felt it would be a 
grievous error for us to introduce troops into the Federally 
Administered Tribal Area (FATA). I assume you would make that 
statement. And I don't want to assume, so I will ask you.
    Of course, the official Musharraf position, and I would 
assume any possible successor, would have that same position, 
is to tell us not to come in. But if that were to change, if 
Pakistan were to welcome, if that is the right word, U.S. 
forces present in Afghanistan, whether it is in Swat or FATA or 
wherever, would that change your position?
    Ambassador Inderfurth. Well, one thing we are dealing with 
is the fact that the United States has only a 15 percent 
favorable rating in Pakistan. We have got a real problem there 
in terms of Pakistani support for American efforts.
    The government is actually more supportive of our efforts 
than the Pakistani people. I think we can turn that around, but 
it is going to take some time and including demonstrating to 
them that we are fully behind free and fair elections on 
February 18 in their country.
    But I think that the military connection, the fact is, I 
mean, this is coincidental, but we have just seen in Islamabad 
today Admiral Fallon, the U.S. Central Command (CENTCOM) 
commander, meeting with the army chief of staff, General 
Kiyani. They are talking about military cooperation.
    I think what we need to do with Pakistan is to work with 
them and their armed forces in a cooperative way. We can't 
inject ourselves unilaterally or with large numbers of troops, 
but we can find ways to cooperate with them. We can actually 
have greater intelligence and military training, assistance, 
military equipment.
    We have been providing a number of things to them. They 
have got the 80,000, 100,000 troops along that border area. We 
have been providing things like night vision goggles and the 
rest.
    Unfortunately, there has been--I mention this in my 
testimony--a level of mistrust that has developed between the 
U.S. and Pakistani military, because they have to turn in those 
night vision goggles for accounting purposes every 30 days, at 
least that was the last report that I heard.
    We need to work more closely with them. We need to have 
more of the International Military Education and Training 
(IMET) training. We need to get closely connected with them to 
address not only the issue of the cross-border infiltration 
into Afghanistan, but what is a spreading insurgency in 
Pakistan itself, out of the tribal areas, into the settled 
areas, as they call them, into Swat. A lot that we need to do 
there.
    Mr. McHugh. Thank you.
    General Barno, I have been to Afghanistan and up in the 
mountains with the 10th Mountain Division and been to Pakistan, 
but I don't think anybody has a better on-the-ground 
perspective, at least in this hearing today, than you do on the 
circumstance.
    Do you feel, given the realities, the historical lack of 
control in that area, whether it is Shah Massoud or any other 
of the warlords, that Pakistan has in the near term and, by 
that, I will say the next decade, a reasonable chance to get 
control of those areas where none has ever existed? Do you view 
the frontier corps as a plausible approach to this? What is 
your perspective on that?
    General Barno. I think Pakistan is going to have to assert 
further control in those areas. In the near term, in the next 
several months, I think with the turmoil in Pakistan recently, 
the military has been very focused inwardly toward the settled 
areas, toward the urban areas, maintaining stability inside of 
Pakistan during this time of some degree of confusion and 
uncertainty.
    So I think that that will limit their ability to be 
effective in the tribal areas in the near term.
    However, as the year goes on and, presumably, as things 
stabilize, I think they are going to have to turn their 
attention to more effective counterinsurgency efforts in those 
tribal areas.
    I am hopeful the U.S. can assist with that. I know Admiral 
Fallon, prior to this visit, has been there and has discussed 
the possibility of additional U.S. trainers and assistance and 
support to help work with the Pakistani military to improve 
their counterinsurgency capabilities, because as you know, they 
were very focused for their entire existence on the major 
conflict with India as their primary focal point.
    They had not spent any time in counterinsurgency. In fact, 
the regular army in Pakistan had never been in the tribal areas 
in the history of the nation until 2004, when they conducted 
their first offensive out there. And those were very uneven in 
performance and outcome.
    They sustained a lot of casualties, they inflicted a number 
of casualties. But counterinsurgency is not something that is, 
I would argue, one of the core competencies right now as a 
military. So I think we are going to have to work with them 
very carefully to grow their capacities and to help make them, 
with their support and a mutual effort, more effective in 
counterinsurgency efforts to be able to reassert control in 
these areas, because the areas I think are probably more 
problematic today than they certainly were three or four years 
ago.
    The Chairman. I thank the gentleman.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Lieutenant General Barno, I was curious. You said if 
several factors occur, then you would have success in 
Afghanistan. I would be curious to hear how you would define 
success in Afghanistan and I would be curious how the other two 
members of the panel would react to your definition.
    General Barno. I have actually sketched out a few thoughts 
on that that I can share. One is I think success equals a 
stable, sustainable Afghan government that is broadly 
representative of the people of Afghanistan.
    Second, I think, regionally, success equals Pakistan 
stabilized as a long-term regional partner, friendly to the 
United States and in control of its military and its nuclear 
weapons.
    Third, I would say having regional states around 
Afghanistan confident about U.S. staying power and commitment 
as their partner in a war on violent extremism in the region.
    Fourth, I think the Taliban and al Qaeda defeated in the 
region and denied useable sanctuary in this part of the world 
and that further attacks against the United States and our 
friends are prevented.
    And then, finally, I think a final objective defining 
success would be a NATO presence that is recast into a 
sustainable set of objectives that NATO can be able to be a 
part of over the long term in Afghanistan.
    So that is a few ticks, I think, in terms of what success 
might look like.
    Mr. Taylor. Dr. Rubin.
    Dr. Rubin. Well, just to refine that a little bit. A 
government in Afghanistan, to be stable, is going to require 
foreign assistance for a long time. It always has required 
foreign assistance for as long as it has existed within these 
borders.
    For that foreign assistance to stabilize it, there must be 
a political agreement among the major powers and the regional 
powers to support the government and not to support other armed 
contenders for power.
    Therefore, there has to be some kind of regional security 
arrangement of the type that Ambassador Inderfurth was talking 
about. Our forces there may be necessary to stabilize it, but 
whether our forces are stabilizing or, in the long term, 
destabilizing depends on how they are perceived by 
Afghanistan's neighbors.
    If they perceive our forces as using Afghanistan as a base 
for destabilizing others in the area, such as Iran, or for 
power projection into other areas, such as central Asia, then 
they will not want U.S. forces to play a stabilizing role.
    So it is not only about what we can do to them, but also 
how we relate to them politically. It is ultimately a political 
issue.
    Mr. Taylor. Mr. Ambassador.
    Ambassador Inderfurth. Well, I would agree with those 
definitions of success. I do want to say one thing, that 
success does not mean, in my mind, a narcotics-free 
Afghanistan. We are not going to see that.
    We can see a turning of the corner on that problem. It 
keeps going up--92 percent of the world's opium comes out of 
Afghanistan and maybe higher this year. It is becoming a sole 
source supplier to the world.
    That corner has to be turned, but it will have to take 
years to do it. Thailand took decades to reach their point of 
moving away from a reliance on narcotics. Alternative 
livelihoods took years to take hold.
    So it is not going to be a narcotics-free Afghanistan and 
it is not going to be an insurgency-free Afghanistan. There may 
be long-term Taliban elements, extremist elements. But taking 
into account the ability of the international community and the 
United States to have a long-term commitment, including the 
kind of foreign assistance that is necessary, including a 
continuing effort to make the region of Afghanistan, as I 
mentioned in my remarks, one that will ensure neutrality for 
that country.
    There are a lot of things that can be defined as success, 
but it is not going to eliminate all the problems we see today.
    Mr. Taylor. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    The gentleman from Maryland, Mr. Bartlett, please.
    Mr. Bartlett. Thank you very much.
    Just a bit before we went into Afghanistan, I was 
privileged with a small congressional delegation (CODEL) to go 
visit the king of Afghanistan in his village just outside 
Kholm. It just happened that our visit coincided with the visit 
of about 10 of the tribal leaders who had come there to see the 
king of Afghanistan.
    We went next to Turkey and perhaps the most insightful 
discussion that I have ever had was with a deputy prime 
minister there, who pointed out that the northern alliance, the 
tribal leaders, if we assisted them, that the Taliban would 
collapse within 30 days. Now, it didn't collapse in quite 30 
days, because we weren't very aggressive in the kinds of 
weapons we gave the tribal leaders and the northern alliance.
    What has happened to those tribal leaders and the northern 
alliance, which was powerful enough then to overthrow the 
central government, the Taliban, and are they a resource that 
we can employ to help bring stability to Afghanistan?
    General Barno. Well, I will let Dr. Rubin talk to part of 
that, but I know, during my tenure there, that many of these 
tribal leaders have now become integrated in the political 
establishment. Some are in the parliament. Some of them, the 
chief of staff of the army is one of those tribal leaders that 
was one of the generals under Ahmad Shah Massoud.
    So there is quite a bit of that leadership still present 
and, generally speaking, in legitimate arenas of political life 
there. Again, many of them have been in the electoral process. 
So they are out there, but they are not a bloc in the same way 
that they were seven, eight, nine years ago, although they are 
still very influential, especially in the northern half of 
Afghanistan.
    Dr. Rubin. Well, I would try to just summarize a very 
complex question. First, I don't think it is accurate to say 
that the northern alliance defeated the Taliban. I believe that 
what happened is the Taliban decided to retreat in the face of 
U.S. air power and that the northern alliance then occupied the 
territory, and that is why the Taliban were in a position to 
make a comeback after going to Pakistan.
    Second, the northern alliance never entered the parts of 
Afghanistan where the insurgency is taking place today. It had 
nothing to do with the change of power in those areas. In those 
areas, it was basically a tribal struggle in which some of the 
Pashtun tribes took power from the Taliban and then became 
integrated with the government.
    So as General Barno said, different figures who were in 
that alliance have now assumed different roles, but we are now 
at a point in the development of the struggle in Afghanistan 
where uncoordinated paramilitary forces that can occupy ground, 
but not govern, are not really what we need in order to 
succeed. What we need is more effective government 
institutions.
    Mr. Bartlett. How long has it been since there was a stable 
central government in Afghanistan to which all of the people 
felt allegiance?
    Dr. Rubin. Well, I can't answer for what is in people's 
hearts, but in 1978, there was no organized armed opposition to 
the government of Afghanistan. And since that time, there has 
been one form or another of armed opposition to the government 
of Afghanistan operating on the territory of Afghanistan and 
also with support from neighboring countries.
    Mr. Bartlett. What changed that incented this opposition?
    Dr. Rubin. What happened basically was at that stage of the 
Cold War, due to many geopolitical factors and some internal 
ones in Afghanistan, rather than both supporting the 
government, as they had for the previous several decades, the 
United States and Soviet Union and their allies began to 
support different contenders for power, with the result that 
you had a proliferation of various armed forces which 
undermined the ability of the government to control the 
territory.
    And we saw it at the time as an ideological struggle 
between communism and the anticommunist Islamic forces, but it 
had a fundamental structural effect, which was that the 
administration and army of Afghanistan collapsed and instead 
power was exercised by these various militias in different 
parts of the country.
    And we are now still trying to pick up the pieces from that 
process of the destruction of the state in Afghanistan.
    Mr. Bartlett. There is an old saying that adversity makes 
strange bedfellows. Was it a common enemy that united them that 
now doesn't exist?
    Dr. Rubin. A common enemy helps, but so does a common flow 
of funding. At that time, there was one flow of funding from 
the Soviet Union going to the government, one flow of funding 
coming from the U.S., Pakistan, and Saudi Arabia going to the 
opposition, which, nonetheless, was somewhat fragmented.
    As soon as the Soviet Union dissolved at the end of 1991 
and as soon as the U.S. disengaged, the structure of the 
conflict changed very radically and it instead became multi-
sided and factionalized rather than bipolar.
    Part of the problem we are having, as I mentioned today, 
again, is the way that assistance is provided and including 
military assistance through the Provincial Reconstruction Team 
(PRT) structure is not always helpful in consolidating and 
making the Afghan government itself more coherent.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentleman from Arkansas, Dr. Snyder, please.
    Dr. Snyder. Thank you, Mr. Chairman.
    I wanted to ask just one question and get each of you to 
comment. We will start with you, Mr. Ambassador.
    We currently are involved in two shooting wars, Afghanistan 
and Iraq, both of which depend on the military operations well 
at the same time the reconstruction efforts go well in order 
for us to ultimately be successful.
    There has been an increasing amount of discussion for the 
last months, year or so, about this topic of interagency reform 
and how Secretary Gates made his speech a few weeks ago at 
Kansas State about the terrible underfunding in the State 
Department, the civilian side of things.
    Would each of you comment on how you see the issue of the 
relationship between our military and our civilian side, now, 
we are talking about just U.S. components of this, and things 
that--obstacles that may be built structurally into our system 
of administration that is delaying the achievement of the kind 
of results we want in both Afghanistan and Iraq?
    Mr. Ambassador, you go first and then down the line.
    Ambassador Inderfurth. Well, that is a terribly important 
question. I think that Secretary Gates's address in Kansas was 
one of the most important ones that I have heard him give and I 
think he has given several, but that whole issue of what I call 
the ``Popeye syndrome,'' the strong right arm fueled by the 
spinach is exactly what we see in the anemic left arm.
    Our efforts to compete with the military requirements in 
terms of funding and resources on the diplomatic reconstruction 
side is just overwhelming and I think that there needs to be, 
as Secretary Gates said, a great deal more attention given to 
the whole issue of how our government is structured.
    The State Department tried with a new office for 
reconstruction post-conflict resolution. It has never been well 
funded. It has never been given the attention that it needs.
    I think that we fundamentally need to look in this 
environment that we are in where the kinds of wars that we 
fight, the kind of conflicts that we are involved in do require 
a joining of both military and civilian components so that the 
civilian side can get the same kind of attention and funding 
that the military requires, as well.
    This is a very important issue that I hope that the 
committee can look into, because we are not doing well there 
and we are not very well organized. We have been talking about 
the fact that the international community has finally 
recognized that it needs a high envoy, Paddy Ashdown apparently 
being the choice, although I think that there are some 
questions in Kabul about exactly what mandate he will have.
    I think we need to have a higher level U.S. official 
responsible for Afghanistan within the U.S. Government. General 
Lute is trying to do what he can at the National Security 
Council, but that is not integrating all of the civilian side 
of this.
    So I think that there should be a high level appointment 
within the U.S. Government to bring our efforts to bear, 
military, civilian, reconstruction on Afghanistan.
    General Barno. I think it is interesting to do some 
relative size markers, of course, and we hear this often 
between defense and state and I talk to military alliances 
about this quite a bit.
    The total number of deployable military forces out there, 
Army, Navy, Air Force, Marines, well over a million, within the 
Army, over 500,000, the vast majority of the number of 
deployable forces, individuals. State Department foreign 
service officers, which is the deployable part of the State 
Department, although there are some other segments, as well, is 
about 6,500.
    As the military folks like to say on occasion is that all 
of them would fit on one carrier battle group and could sail 
away out there, and that is the entire State Department 
worldwide deployable force of foreign service officers.
    So there is probably a capacity problem there that we run 
into in manning PRTs in Afghanistan and growing larger 
embassies in conflict zones. So that size is one part.
    I think the funding aspect clearly is a factor of 10 to 1 
or so with Defense Department, as well, and that has an impact. 
But I think, also, the culture is important. The culture of the 
State Department in the 21st century, in an environment where 
the diplomatic end of this has got aspects of being a 
prosecutor of parts of the conflict or being a partner with the 
military in prosecuting these conflicts, we have to work at the 
culture of what State Department officers do in the field.
    They have got to be able, in Afghanistan or in Iraq, the 
two current cases, to partner with military officers who are 
trying to prosecute a very complex counterinsurgency campaign 
in which, as we have heard several times, only 20 percent of 
the effort is military. The other 80 percent is going to have 
to be led by probably someone outside the military, and that is 
not part of how we train or develop our State Department 
officers today.
    So I think we have to look at that aspect, the culture of 
what the 21st century State Department officer needs to look 
like.
    Dr. Rubin. Well, I do agree. There is a severe imbalance on 
the civilian side of our international relations apparatus, it 
has been underfunded and downsized in many respects in a way 
that is very harmful to our ability to prosecute this type of 
effort.
    That is particularly evident on the aid side, where the 
downsizing and privatization of the aid apparatus has meant 
that in a situation like Afghanistan, we have a very small 
number of professional employees who are basically reduced to 
the role of contract administrators, trying to--and then 
bringing in primarily U.S. contractors who have no experience 
operating in this kind of environment and then spend a lot of 
money on subcontracting and so on in a way that is generally 
considered by those on the ground to be extremely wasteful.
    So we do need to professionalize our aid system much more 
and, to some extent, of course, we face that problem on the 
military side, with the growth of private military contractors, 
as well, though that is not as big a problem in Afghanistan as 
it is in Iraq. It still is a problem.
    If we are going to address our national security needs, we 
need to have a government that is capable of doing that in an 
accountable way.
    The Chairman. I thank the gentleman.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And I want to thank you three gentlemen.
    Dr. Rubin, the reason that I--you and the ambassador, your 
comments about the fact that we are not getting more help from 
NATO because the leaders of those nations, for whatever reason, 
don't seem to feel a closeness to this Administration. I 
believe I understood you correctly.
    In 10 or 11 months, there is going to be a new President, 
whether it be a Republican or a Democrat. I want to ask you--I 
have got two questions. I will be very quick.
    Do you think that the next President, if it is a he or a 
she, that if they put Afghanistan on the front burner, 
understanding--I think one of your answers to Mr. Snyder was 
that what we need over in Afghanistan is a high level position 
for a person even above the ambassador's position to try to get 
a handle on a direction for Afghanistan.
    Do you believe that if that could be done in the first 90 
days of 120 days of the new Administration, that we could start 
down the road of getting these other countries to understand, 
as Mr. Hunter said, the war on terrorism and how important 
Afghanistan is?
    Dr. Rubin. Well, as I said, I have visited many of these 
countries, Spain, Italy, U.K., Canada, Germany, Norway, Sweden, 
by the way, Turkey, all of whom have troops in Afghanistan, and 
I have discussed this with some, not, of course, at the highest 
political level, but with some of the professional level, and 
there is definitely--they are all very much looking forward to 
our Presidential elections and there is definitely a hunger for 
U.S. leadership that they can trust and rely on.
    And I think that the next President, let us say there are 
approximately three candidates who look like realistic 
possibilities right now, I think all of those individuals are 
such that they would likely benefit from a tremendous bounce 
from not being the current Administration and that many 
countries around the world would want to do something to try to 
rebuild the relationships with the United States, they have 
said that to me, and that this would be one arena in which they 
could do so.
    Ambassador Inderfurth. I think that Dr. Rubin's remarks are 
right. I would add, though, in terms of my suggestion for a--
the U.S. should appoint a special U.S. envoy, again, it should 
be Afghanistan and Pakistan and working with those two 
countries, both to deal with the military insurgency 
requirements, working closely with NATO, working closely with 
the leaders of both countries and their militaries, and, also, 
trying to do something about these longer term issues, about 
how to resolve the longstanding difference which are both 
historical and ethnic and the rest between Pakistan and 
Afghanistan.
    So I think that a high level envoy--I wouldn't suggest that 
that person supersede the U.S. ambassadors in those two 
countries, but that that person would have full-time attention 
to this issue, because, again, I think that these two countries 
are truly the central front in the war on terrorism and we need 
a high level person with authority and backing and direct 
access to the President to work on it.
    Mr. Jones. General, let me ask you a different question, 
because time will go very quickly.
    How many security contractors are in Afghanistan? How many 
are American companies and how many are foreign companies, do 
you know?
    General Barno. No, I can't answer that, Congressman, I am 
sorry.
    Mr. Jones. The reason for that, Mr. Chairman, I know that 
time is about up, I met recently with a former--well, a Marine 
who was with a foreign security company and his comments to 
me--he gave me a two-hour report, that there are things going 
on in that country as it relates to security forces that are 
not good for the image of what we are trying to achieve in that 
country.
    I intend to take this gentleman before the right Members of 
Congress, whether it be a Senator or a House Member, and ask 
them to meet with him, because I was very disturbed by what he 
told me is happening as it relates to many of these security 
forces in Afghanistan.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Smith, the gentleman from Washington.
    Mr. Smith. Thank you, Mr. Chairman.
    General Barno, I want to focus in on two of the three 
points you had there, leadership and resources.
    I guess as we were just talking about a little bit, I think 
one of the major struggles right now, aside from the just 
inherent difficulties in Afghanistan and Pakistan, is getting 
the rest of the world, or at least our allies, to sort of see 
the issue the same way, get on the same page, and--well, have 
us get on the same page. I am not implying they need to come 
our way, but get broader agreement amongst our allies so that 
we can maximize the resources that are available to deal with 
Afghanistan and Pakistan, as well, and all of the elements that 
we have talked about: diplomacy, infrastructure, the need for 
troops, because it just seems to be, as was mentioned in the 
testimony, about how only two of the countries that are present 
in Afghanistan currently have popular support for that 
presence.
    And there are a lot of different reasons for this. When I 
was over there, one of the focuses was it is okay if we are 
doing counterinsurgency with Afghanistan, but we don't want to 
get--one of the quotes I received from someone from another 
country was ``dragged into the global war on terror.''
    And our perspective is, well, whether you want in or not, 
you are in. But somewhere along the way, we have sort of lost a 
message that everyone can say, ``Yes, this is clearly what we 
are fighting, we are with you, let us work together.''
    I have had a number of conversations with folks in Great 
Britain, that they have reexamined this issue. They want to 
dump the whole global war on terror phrase. They don't think it 
is helpful. They don't think it works. And sort of reexamine 
how we fight what it is that we say we are fighting, al Qaeda.
    And certainly whatever disagreements may exist about Iraq, 
you look at the situation, clearly, al Qaeda, the Taliban, that 
is what threatens not just the U.S., but much of the civilized 
world, and yet we can't get that civilized world, if you will, 
sort of on the same page.
    So I am curious what your thoughts are in terms of how we 
exercise that leadership. Certainly, a new President shuffles 
the deck, gives us an opportunity. But when we move into that 
phase, how do we take that opportunity? What is the way to get 
at least our NATO allies, but preferably a lot of moderate 
Muslim states, as well, more on board?
    So take a stab at that and then I will just throw a quick 
comment out on resources and if any of you want to comment on 
this. I think it is fair to say that our resources in 
Afghanistan, whether diplomatic or military, are not going up 
significantly as long as we are spending $150 billion, $160 
billion a year in Iraq, and have 130,000-plus troops there, and 
that is the plan for the foreseeable future.
    I am curious about your comments on that, if I am right 
about that, or if not, where we find the resources.
    So in the tiny amount of time you have, take a stab at the 
leadership and resources issue, along those lines. I would 
appreciate it.
    General Barno. I think I would start by saying I am less 
optimistic that any change of Administration, be it Republican 
or Democrats coming in in 2009, are going to suddenly change 
the calculus for our allies in Europe.
    As I travel around and I talk to militaries in various 
countries in Europe and I talk to some of the civilian 
leadership, I sense that their reluctance to get more involved 
in Afghanistan has less to do with the current Administration 
than it has to do with just tremendous aversion to being 
involved in combat operations of a type that don't directly, in 
their view, in the population's view, affect their countries, 
and I think they are very extraordinarily sensitive to 
casualties.
    I was at one defense college in Europe last year and I had 
two of their officers in uniform get up. One asked me the 
question, ``How can you Americans send your soldiers out on an 
operation knowing that some of them might not come back?'' And 
another one asked me the question or made the comment that, 
``The first thing in our mission statement for our nation,'' 
and he was talking about Afghanistan, ``was that we will bring 
everyone back from this operation.'' Everyone has to come back 
from the operations. In other words, no casualties.
    And so as I listened to two officers in uniform make those 
comments to me, I became very unsettled about what the 
prospects for this country and some of the others that it 
represents were for prosecuting further operations in 
Afghanistan.
    So I think that there is an underlying thematic in Europe 
that I seem to detect that views Afghanistan much differently 
than we in the United States view Afghanistan. We are there, at 
least we originally came there because of 9/11. We are 
remaining there because of that, because of the threat that 
still represents out there. But somehow that doesn't, from my 
experience, doesn't seem to resonate nearly as well in Europe.
    So I am concerned about that and how you either energize or 
reenergize their view of this in a different way is something I 
don't have a good answer for right now.
    Mr. Smith. Thank you. Quickly, Ambassador.
    Ambassador Inderfurth. Well, in terms of the resources, I 
would just call attention to a statement that the Iraq study 
group made in its report, where it said it is critical for the 
United States to provide additional political, economic and 
military support for Afghanistan, including resources that 
might become available as combat forces are moved from Iraq.
    This committee knows much better than I do the difficulties 
of funding all of these objectives that we have right now with 
two wars, but I think that there is a consensus that people 
looking at this say we need to do more, including as we draw 
down some of our commitment in Iraq, and hopefully we will be 
able to do that.
    Mr. Smith. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentlelady from Virginia, Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today.
    I was on a CODEL this summer that did visit Iraq, Pakistan 
and Afghanistan. So it was quite an experience for all of us on 
the trip.
    I did think, in Pakistan, that the U.S. embassy employees 
were phenomenal. I mean, I just have never been on a CODEL 
where the people seemed as engaged and I just wanted to comment 
on how impressed I was by them.
    But the thing that always came back to us in Afghanistan 
was the poppy crop and why we were in Afghanistan spending the 
money, the effort, the human life, and not able to get our 
hands around the poppy crop and the flow of money to the 
Taliban.
    And, Ambassador, you just made a point that this is going 
to stay for a long time. When we were in Pakistan, we asked the 
Pakistani senators that we met with about the poppy crop and 
they said that they had been successful in eradicating a lot of 
their crop and we asked them to help Afghanistan to find out if 
there is some way that they could do that.
    And the second thing that was so glaring, of course, and 
you have mentioned it, are the ungoverned areas. And it almost 
made you want to say either go in there and govern that area or 
give it up so that somebody else can go and provide the 
security.
    So I guess I still just don't believe that we can't do 
something about the poppy crop and the flow of money and 
alternative crops for those farmers to grow there.
    And I truly didn't leave there thinking it was the farmers 
making all the money from the poppy. It is the middleman and 
how we deal with that issue.
    So any comments you have on that, I would truly appreciate 
it.
    Ambassador Inderfurth. Well, I will defer to Barney Rubin 
on the narcotics issue, because I think he has studied that as 
much as anybody that I know and has addressed many of the same 
questions that you just had.
    Dr. Rubin. Well, thank you. First of all, the comparison, 
the way that Pakistan eliminated opium, poppy cultivation in 
Pakistan was by pushing it into Afghanistan. And Pakistan, of 
course, you have seen it is a very poor country, but it is much 
better off than Afghanistan.
    There is no comparison. Afghanistan, again, it is the 
poorest country in the entire world outside of sub-Saharan 
Africa and it is poorer than almost every country in sub-
Saharan Africa, not just in low income, but all the things that 
you need to produce income, it is not just a matter of other 
crops, such as roads, financing, agricultural extension, and, 
most important, security.
    You cannot take legal crops to market if you cannot travel 
on the roads. That is the situation in the most insecure parts 
of Afghanistan. That is not a problem for drug traffickers.
    So, basically, it comes back to the security problem and 
those areas of Afghanistan that are now relatively secure, 
actually, poppy cultivation has decreased.
    There is still a major problem with drug trafficking and 
corruption that is related to it and it is the people--
associated with the government, not the Taliban, in those areas 
who are getting the profit from it.
    But it is primarily a security issue and a development 
issue. It cannot be dealt with through military or coercive 
means primarily.
    General Barno. If I could make one additional comment. I 
think one of the things we have to be careful about with the 
focus on counter-narcotics is not to look at it as a single 
issue of focus, that it is part of an integrated picture in 
Afghanistan and it relates, very quickly, to the economics in 
the country.
    Unlike Iraq, Afghanistan is an agricultural country. It has 
no natural resources. It doesn't have an oil industry. It 
doesn't have infrastructure. So the majority of the people in 
Afghanistan are involved in agriculture.
    Yet, the agricultural sector has been utterly destroyed 
over the last 25 years and has not been rebuilt, despite 
episodic attempts to do that by the U.S. and by the Brits and 
others. The agricultural sector in Afghanistan is still largely 
dysfunctional, which means that the economy that affects most 
of the people of Afghanistan is largely dysfunctional.
    In my judgment, unless we make a major effort to rebuild 
the legitimate agricultural sector and measure our 
effectiveness against acres of crops, of legitimate agriculture 
that are planted instead of crops of poppy that are planted, 
which pushes you toward eradication, we ought to be counting 
how many acres in Afghanistan every year are growing and the 
number of legitimate farms and working agricultural sector 
approaches that are going on there.
    That is what the country's economy is going to be based on 
and we really haven't done enough to rebuild that, and I think 
that is going to be a fundamental part of the ultimate success 
or failure of the country, whether that agricultural economy 
works in a legitimate agricultural arena, which it doesn't 
today.
    Ambassador Inderfurth. And I would just add, in terms of 
agriculture, as I understand it, going back to an earlier 
question, I think we have six agricultural experts assigned to 
Afghanistan right now. The numbers are just dwarfed by the 
other concerns.
    The Chairman. You will soon have several Missouri National 
Guard farmers that will add to that and they are due to arrive, 
I believe, February-March. I would just point that out and take 
a good opportunity to brag about my Missouri National 
Guardsmen.
    The gentleman from New Jersey, Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. I thank the panel.
    General Barno tells us that in 2004, there were 900 
security incidents nationwide in Afghanistan. In 2007, there 
were 8,950.
    The ambassador, I think, pinpoints the reason for this 
spike when he says ``The future stability of both Afghanistan 
and Pakistan depends on the development of an effective 
strategy to counter and uproot the Taliban-al Qaeda sanctuary 
in Pakistan's tribal border areas.''
    If one looks at the short-term future of Pakistan, it seems 
to me there are three possible scenarios. The first, although I 
think it is the least likely, is the survival of the Musharraf 
regime into the indefinite future.
    General Musharraf has, at best, an ambiguous record in 
recent years with respect to his desire to control the FATA.
    The second possible scenario would be the--and I hope it is 
the least likely--would be a hostile jihadist-type government 
taking over in Islamabad, which presumably would be supportive 
of the terrorist activities in the FATA.
    The third possible scenario, the most likely one, is this: 
that a new government does take place, whether by election or 
some combination of election and popular will uprising, and the 
Musharraf regime comes to an end.
    If we assume that is what happens and there is a new 
government after Musharraf that is not a jihadist government, 
but a different government, what incentive do the leaders of 
that government have to become aggressive in FATA and shut down 
al Qaeda and the Taliban?
    If they were talking to their constituents about Pakistan 
and said ``We are going to commit money and people and 
resources to flush the Taliban out of the FATA,'' what 
justification would they give to the Pakistani people to do 
that?
    Ambassador Inderfurth. I will take a first effort here. I 
think the justification is I think the vast majority of 
Pakistani people are moderates. They do not want to see the 
establishment of a theocratic state, a jihadist state.
    They have seen what has happened in Afghanistan. They do 
not want to see the Talibanization of their country.
    Mr. Andrews. If I may--how probable do you think Pakistani 
citizens think that is, given the relatively isolated 
geographic nature of the violence? I know it is spread into the 
settled areas, but do you think they think that is a real 
threat?
    Ambassador Inderfurth. No. I do not actually think they 
think that this is a real threat now. But to President 
Musharraf's credit, in a speech that he gave in January 2002, a 
nationwide address, he said that the greatest threat to the 
country is from within, extremist forces on the rise within 
Pakistan.
    He identified the problem then.
    Mr. Andrews. As I think Dr. Rubin--I think he uses the term 
``illegitimate'' to describe the way the Pakistani people see 
Musharraf's leadership. So that is the position of a leader who 
seems increasingly illegitimate.
    Ambassador Inderfurth. He actually had 60 percent approval 
rating before he sacked the supreme court justice and since 
then it has been downhill. And the Pakistani people, I believe 
that they are--the majority of them, are moderates. They want 
to see the establishment of a representative democratic state.
    I think the February 18 elections are very important. It is 
very important for the United States to signal in every 
possible way, including from a very able ambassador in 
Islamabad, Ambassador Patterson, who has just been mentioned, 
very important that we are on the right side of speaking to 
those issues.
    But it is also very important that the United States not be 
seen as trying to micromanage Pakistan's political future. We 
need to indicate where we stand on principals, but not try to 
make our way through this.
    But of your three scenarios, the least likely, I think, is 
the takeover of the government by a radical jihadist movement. 
That may be well into the future, but I think these other 
options are more likely.
    Mr. Andrews. I sure hope so.
    General, what do you think the incentive would be for new 
leadership to get control of the FATA?
    General Barno. I think it will be a challenge for them. I 
think one of the problems we have today is that the Pakistani 
populace, and I very much agree with Ambassador Inderfurth's 
assessment of their moderate nature, is that the population 
sees this as America's right. They don't see it as Pakistan's 
fight.
    Mr. Andrews. That is my concern.
    General Barno. And I think that we have got to work with 
this new leadership to convince them that it is all of our 
fight and that this is a risk to them and their survivability.
    Mr. Andrews. Do you think they believe that now?
    General Barno. I think the population is ambivalent about 
the threat, but I think the leadership could be convinced of 
that and I think it is a very logical argument and there is 
certainly a lot of history behind it being----
    Mr. Andrews. What could we do to help change that tide of 
public opinion within Pakistan? How do we contribute to that 
effort in a positive way?
    General Barno. I think, in part, probably through how we 
target our aid programs might be a way to look at that, 
including education.
    The Chairman. I thank the gentleman.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    General Barno, I want to extend greetings----
    General Barno. Good to see you.
    Mr. Wilson [continuing]. West Point classmate, state 
Senator Wes Hayes of Rock Hill. I want to thank you for your 
service at Fort Jackson, helping provide opportunities to young 
people to serve our country.
    Also, as we discuss Afghanistan, my perspective, the 218th 
Brigade of the South Carolina Army National Guard is currently 
at Camp Phoenix and throughout the country training the Afghan 
army and police units.
    There are 1,600 troops. It is my former unit, led very ably 
by General Bob Livingston, 1,600 troops. It is the largest 
deployment from our state since World War II. And so our state 
has developed a keen interest in success and victory in 
Afghanistan.
    I also have the perspective--I am the co-chair of the 
Afghan Caucus. I have been to the country five times and the 
people are so impressive.
    What I am concerned about, General, is that having visited 
the police training facilities, having met the very brave 
people who volunteer to serve as police, what is the status of 
the police that you helped create? And I am concerned about the 
pay, if it is a disincentive to corruption or incentive for 
corruption.
    General Barno. I am probably not fully up to the very most 
current information on police, but let me give you several 
thoughts, Congressman.
    It is terrific to see you once again. I spent a lot of my 
life in South Carolina and enjoyed my tour there immensely at 
Fort Jackson.
    The police program I think is a success story that is still 
to happen in Afghanistan in many ways. We made a strong 
argument in 2004 and into 2005, during my time, to shift the 
management of that over to the military and the embassy 
combined as opposed to having it managed by a very small 
element within state.
    But I also think that there are misconceptions abounding on 
the police training programs in Afghanistan. The police in 
Afghanistan aren't the police we see on the corners in 
Washington. They are in a counterinsurgency war. They are the 
front line of defense in this war in many cases.
    They have to be armed with AK-47s and sometimes rocket 
launchers and machine guns, because they are fighting the 
Taliban, not simply petty criminals on the street corner.
    So I think that the training programs have got to account 
for that and they have got to build a program for the police, 
which I think is underway, that gives them many of the same 
capabilities and many of the same mentorship opportunities that 
the Afghan national army has done so well with.
    If the Afghans, whether police or military, are given the 
right training with the right weaponry and have Americans or 
our allies standing shoulder to shoulder with them as mentors, 
they will hold fast under difficult conditions.
    And to the extent which we can import that idea into the 
police program, I think it will have prospects for success, 
perhaps even better than it does today.
    Mr. Wilson. Ambassador Inderfurth, I had the privilege 
several weeks ago, sadly, of visiting with Prime Minister 
Bhutto at her home for breakfast. I also visited with President 
Musharraf.
    I share your view that we need to be working with the 
Pakistani army. The military is professional. I was really 
disappointed to find out that, as you specifically identified, 
the night vision goggles, that is no way to treat a partner.
    Are there other suggestions that you can provide that we 
can work more closely with this army, which is truly facing the 
enemy today?
    Ambassador Inderfurth. Let me get to you on that. Let me 
talk to some people. I would like to give you a considered 
response to that, and I am glad that you picked up on that.
    This is terribly important. This is the key to rising the 
level of trust between the two militaries.
    Mr. Wilson. And, indeed, it has been cited, they have 
100,000 troops on the border with Afghanistan. They indeed are 
taking casualties. The insurgency has spread backward into the 
Swat region. This just needs to be addressed.
    And, again, I just appreciate all of you being here and 
this country is--the country of Afghanistan is so important to 
the security of our country.
    Thank you.
    Ambassador Inderfurth. Could I also mention that I spent 
time at Fort Jackson in basic training, which was a little bit 
different perhaps than some of the other experiences there.
    Mr. Wilson. And I also want to commend you. I am glad to 
see someone from Charlotte, which is greater Rock Hill, is 
doing well. Thank you.
    Dr. Rubin. May I add?
    The Chairman. Please, yes.
    Dr. Rubin. The Pakistan military does have professional 
characteristics as a military organization, but it also has 
some very unprofessional characteristics, such as staging coup 
d'etats and rigging elections.
    And the fact that it has done those things is a reason that 
the people in Pakistan, generally speaking, do not share the 
regard that some of us have for the Pakistan military and the 
key to our being partners with them is assuring that the 
military within Pakistan plays its professional role in a way 
that the citizens of Pakistan consider to be legitimate.
    Mr. Wilson. And one point on that. I did visit with the 
Pakistani military Muzaffarabad in the earthquake recovery and 
I was very impressed at their professionalism, but it does need 
to extend beyond coup d'etat.
    Thank you.
    Ambassador Inderfurth. And the Army chief of staff, General 
Kiyani, has just issued an order that Pakistani military are 
not to have contacts with the politicians, which may be a step 
in the right direction.
    The Chairman. With that, we thank the gentleman.
    Mrs. Davis, the gentlelady from California.
    Mrs. Davis of California. Thank you, Mr. Chairman. Thank 
you to all of you for being here.
    And I must say you certainly, I think, have set the right 
tone for this hearing. I returned two days ago from Afghanistan 
and I guess one of the meters that I would use, having been 
there in the past and been able to travel certainly on an envoy 
into the city, into Kabul, that we were not able to do that 
this time and, in fact, in many ways, in terms of the efforts 
going on there, it seems to be left to the nongovernmental 
organizations (NGOs), because it is not secure enough even for 
embassy officials to be able to travel easily and do the work 
that they clearly want to be doing.
    I wanted to just turn for one quick second, because I 
also--and I think that Mr. Abercrombie will certainly address 
this in terms of the impressions of our NATO counterparts.
    And we did have an opportunity to speak with a few of them 
on a CODEL and, in some ways, their responses actually 
surprised us, I think, just a little bit.
    It is not that they were interested in going--increasing 
their troop levels or changing the caveats of where they can 
fight and under what conditions, et cetera, but that they seem 
to understand the long-term struggle, and they felt that there 
were other non-kinetic ways in which they wanted to be asked 
and to be engaged further, and, clearly, that is something that 
they can do, but I think that there was a different tone that 
we weren't expecting there.
    On that note, I just think that we haven't necessarily 
brought our public in, as well, to what this long-term struggle 
means and the fact that we can't have short successes, that it 
is a long struggle.
    Could you help me out with one area? Having looked at 
interagency coordination, the importance of our PRTs and we 
have worked with them on Mr. Snyder's committee, on Oversight 
and Investigation, we have looked at a lot of the PRTs.
    We had a chance to visit our PRT in the Panjshir Valley 
and, also, the Turkish PRT, as well.
    What impact do you believe the PRTs are having on the 
ground, particularly in those areas that are less stable or 
were less stable and that we have--what impact are they really 
having?
    And I would just question one additional issue in terms of 
``Charlie Wilson's War.'' How would you see unintended 
consequences perhaps for the future and would those PRTs have 
any role in a positive or negative way in the future?
    General Barno. Briefly on PRTs and then perhaps a bit on 
your second question.
    I think, you know, when I first arrived in Afghanistan, 
there were four PRTs in Afghanistan. There are over 25 there 
today. There are different models in different nations out 
there and some of those are much more effective than others.
    I am a big fan of American PRTs. I think American PRTs have 
a very good model and are focused on getting outside the wire 
and working closely with the provincial governments.
    Mrs. Davis of California. I am looking for the measures of 
success. And how are we measuring that?
    General Barno. That is a very good question and I think if 
you dig into it, you will find that there has been resistance 
to establishing a common metric of success or measurement of 
effectiveness for the PRTs, mostly driven by our allies that 
are out there on PRTs, that there is a reluctance, at least 
there [are] reports I have heard six months or so ago, to 
establish a standard by which everyone would be held 
accountable.
    I would encourage us to take that step. I think that is 
important or you can't tell if you are having effectiveness and 
you can't tell a good PRT from a bad PRT, which I think needs 
to happen.
    On your second point there on unintended consequences, I 
was at a dinner last night and one of the members of the group 
was a brigade commander who had just returned from Iraq 
recently and he said--he was out in the Anbar province area and 
he said that the biggest change, in his estimation, in Anbar, 
that was the tipping point there to success in this tribal 
awakening, was when we changed our message in Anbar from 
``Don't worry, we are leaving'' to a message of ``Don't worry, 
we are staying.''
    That is the message that we have got to send in 
Afghanistan, we have got to send in Pakistan, we have to send 
in the region. The common question I got in Afghanistan over 
and over again from Afghans of all stripe was ``You Americans 
aren't going to abandon us again, are you?'' going to the 
``Charlie Wilson's War'' outlook at the end of the movie.
    And that is a tremendous concern that is always right on 
the tip of people's tongues, the tip of their issues out there, 
that we have got to reassure everyone there that we are 
staying.
    Many of them viewed NATO as our exit ramp and we have got 
to disabuse everyone there of that notion and recognize that we 
and NATO are there for the long haul and send that message.
    Mrs. Davis of California. Thank you very much. I was trying 
to just get a response from either of our guests, if you wanted 
to comment.
    Ambassador Inderfurth. Well, that latter point, convincing 
them that we are staying for the long haul is also going to 
play into Pakistan. Right now, there are those in the Pakistani 
government that are playing a double game.
    They do not fully believe that we will be there and the 
whole idea of going into this borderland areas, which, as 
Congressman Hunter said, this is going to be a tough, long-term 
thing, unless Pakistan recognizes that we are going to actually 
stick with them, then they are not going to be able to make 
that full commitment themselves to deal with this, because once 
we leave, then they are back to square one.
    So a long-term resolve, a long-term commitment for both 
Afghanistan and Pakistan is essential.
    Mrs. Davis of California. Dr. Rubin.
    Dr. Rubin. Briefly, PRTs, of course, are not solely 
military units. They are, in fact, designed to provide a 
security perimeter for political and economic activity in 
insecure areas.
    One of the problems with them is that because they are 
under national commands, their aid budget and political 
staffing also comes, generally speaking, from the nation under 
whose command they are and there is no rational strategic 
reason for distributing resources that way in Afghanistan.
    One of the poorest provinces in Afghanistan, Ghowr has a 
PRT which is headed by Lithuania, and I welcome Lithuania's 
contributions, certainly, but Lithuania does not have the kind 
of aid budget that you need to help Ghowr province and the aid 
budgets to the PRTs, despite the good faith efforts of many 
military commanders, are not institutionally integrated into 
the aid coordination structures.
    The Chairman. I thank the gentlelady.
    The gentleman from Texas, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, appreciate that.
    Two areas. One would be, is the Karzai government doing the 
job in terms of the antinarcotics, of going after landowners 
and the upper echelon of the food chain? It is one thing to 
eradicate sharecropper poppy crops, but to go after the folks 
who insist that the crops be grown on those properties, is that 
government going after those?
    And the other question would be, how much of Pakistan's 
military attention is still spent on India and the issues on 
their eastern border? How does that play into what is going on 
with the Pakistani military?
    Ambassador Inderfurth. I could take the latter question 
about India. The fact is that there has been a long period of 
time now where the relations between India and Pakistan have 
been calm, stable and progressing in a positive way.
    I think that the--we saw in 2001-2002 the border between 
the two countries, a mobilization of over a million people, a 
million soldiers, because of the attack on the Indian 
parliament. That period then has been replaced by both what we 
call front channel and back channel communications, including 
President Musharraf and Indian Prime Minister Manmohan Singh 
and back channel intermediaries, trying to find a way to walk 
away from that past history that has caused three wars in their 
60 years and two over Kashmir.
    So I think the military concerns right now in Pakistan are 
far less with India than they have been in a very long time 
and, therefore, far more focused on what is happening in these 
northern tribal settled areas.
    Dr. Rubin. If I may. I think we should have--to address the 
issue of the Karzai government, it is very difficult for the 
Karzai government to take on powerful figures who have been 
armed and funded by the United States in order to fight the 
Taliban. So let us be realistic about what has actually gone 
on.
    And I even know of cases where President Karzai has wanted 
to do something and has not been able to do it for that reason. 
I believe that has changed in the past several years, but, 
again, remember, the Afghan government, as I pointed out 
several times, is extraordinarily weak. The justice system does 
not work and the police do not work.
    And in order to have access to most of the territory, the 
Afghan government relies on political alliances with local 
power holders who actually control the territory, many of whom 
are involved one way or another with drug trafficking.
    You can't use law enforcement against something that is 
equal to one-half the size of your whole economy. Law 
enforcement is used against marginal activities.
    So in a way, we need a political solution to the drug 
problem in Afghanistan, just as we do to the insurgency.
    Mr. Connolly. Well, Mr. Rubin, what is your political 
solution?
    Well, in the time left, how would you get the Taliban and 
al Qaeda out of the ungoverned areas, if you were president?
    Dr. Rubin. You are asking me?
    Mr. Connolly. Yes, sir.
    Dr. Rubin. Well, I think that the strategy for doing so is 
to support the programs which have been proposed by the leading 
Pakistani political parties to politically integrate those 
areas through a process which they have laid out which has 
support in those areas themselves.
    There is no immediate military way of doing that that has a 
likelihood of success and I think that is the reason that even 
most military figures to whom I have spoken do not advocate a 
primarily military-led operation to gain control of those 
areas.
    On the first question about the political settlement of the 
narcotics issue, I do have a lengthy report coming out on this 
which will be available in a couple weeks.
    Let me say that the political goals should be, one, to win 
the allegiance of those in the population who are economically 
dependent on the drug economy, but they are not the main 
profiteers from it; second, to offer legitimate options for 
those who have been profiting from the drug economy, but want 
to move out of it and into legitimate activity; and then, 
third, in that context, to use as many instruments as we can, 
in particular, for the destruction of heroin laboratories, the 
interdiction of drug trafficking and removal from political 
positions of people whom we know to be involved in drug 
trafficking.
    The Chairman. I thank the gentleman from Texas.
    The gentleman from Georgia, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    What I have heard this morning is that our success in 
Afghanistan is dependent on our success in Pakistan. Could you 
briefly tell us why and--well, I will start with that.
    Ambassador Inderfurth. Well, the principal reason right now 
is that, as the National Intelligence Estimate, in July, that 
was released, the key findings was that al Qaeda has 
reconstituted itself in these border areas of Pakistan and we 
have seen for some time a resurgence of the Taliban with a safe 
haven in Pakistan itself.
    They are working together. The insurgency that they have 
crossing the border is placing the Afghan government and our 
forces in southern Afghanistan at risk. The militancy, the 
extremism that al Qaeda-Taliban represents is spreading through 
the tribal areas into other parts.
    There has been a migration of tactics used in Iraq into 
these areas, the suicide bombings, the assassinations, 
including, if our CIA is correct, the assassination of Benazir 
Bhutto.
    So it is dealing with that threat of al Qaeda-Taliban in 
the Pakistani border areas that is placing both countries at 
greater risk and that is why they have to be dealt with.
    Mr. Johnson. And that threat cannot be eradicated by 
military means.
    Ambassador Inderfurth. By military means alone.
    Mr. Johnson. So we have got to focus our----
    Ambassador Inderfurth. It has to be a comprehensive 
strategy that deals not only with the military threat, through 
intelligence, through military assets, working cooperatively 
with the Pakistani government, working cooperatively with, I 
mentioned, the trilateral commission of Afghanistan, Pakistan.
    Afghanistan and Pakistan have to work on this together, 
too, and there is that trilateral commission that will allow 
that to take place. We have to enhance that and, again, the 
appointment of a U.S. special envoy could be a key part in 
raising the availability and the viability of that mechanism.
    So that is what we need to do.
    Mr. Johnson. Okay. I would say, first of all, we should not 
lose sight of the fact that the very military in Pakistan with 
which we are working against the Taliban is the same military 
that put the Taliban in power and supported them for many years 
and that they did so for strategic reasons having to do with 
India, which is partly in response to the question about India.
    Even Pakistan's activities that are not directly directed 
at India are part of an overall strategic vision that the 
military has, which is focused on India.
    We have a tendency to think that the rest of the world is 
seeing things the way we do in terms of the threats we 
identify, terrorism in this area. For Pakistan, the big threat 
is India. The big threat to Pakistan in Afghanistan was not 
extremism as represented by the Taliban, but the idea that 
India might get a toehold or, before that, the Soviet Union, 
which is considered to be closer to India, on Pakistan's 
northwestern frontier.
    So long as the military still has that India-centric focus 
and regards the tribal area as a platform for covert operations 
to balance its much larger foe, India, which it has been doing 
since 1947, we will have a problem.
    I would assume that dynamic has changed, though, within the 
Pakistani leadership regarding Afghanistan.
    Ambassador Inderfurth. I believe it has.
    General Barno. I am skeptical about that. I still think 
that that is a critical core component of how the Pakistani 
military thinks and I think one of the things that 
inadvertently happened when the U.S. announced in 2005 that we 
were turning the effort over to NATO and, later, at the end of 
the year, we announced we were actually going to withdraw some 
combat troops, that the Pakistanis, in my opinion, absorbed 
that as the Americans were moving for the exits and then they 
had to make sure that their back door was protected inside of 
Afghanistan.
    I was at a conference earlier, last year, where a senior 
Pakistani general made the comment that we really need to get 
out of this counterinsurgency business and get back into major 
war fighting, that is what militaries ought to be doing, and 
that is still a very important cultural content of their 
military.
    The diplomatic relations with India are significantly 
better than they have been in many years, but the military, I 
think, still views this a bit differently and is very reluctant 
to put their apples in a counterinsurgency basket focused on 
the tribal areas.
    They had very severe results, very negative results, in 
many respects, from their fighting there in 2004 and they are 
not enthused about going back and fighting there again, because 
it is not the core of their capabilities.
    Ambassador Inderfurth. May I explain my answer? Because I 
gave a more positive response to whether or not there has been 
an attitudinal change. I said, yes, I believe there has been, 
in this way:
    The Pakistani military and their leadership recognize that 
there has been a blowback on them by supporting the Taliban 
during that period, as well as jihadist groups in Kashmir. 
These are coming back to attack them and they realize that.
    Mr. Johnson. Thank you.
    The Chairman. I thank the gentleman.
    The gentleman from Hawaii, Mr. Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Mr. Chairman, I have here a copy of the report you will be 
receiving probably today or tomorrow. This is the result of a 
congressional delegation that I headed as a result of a visit 
to Afghanistan on another congressional delegation we went on, 
Iraq and Afghanistan.
    We went to Europe to speak with NATO folks and the French 
and German colleagues with regard to Afghanistan. Obviously, I 
don't have all the time to summarize that for you, but suffice 
to say that with regard to two particular areas, the PRTs and 
the growing of poppies, hopefully this will lead us to some 
perspective that might reflect on the testimony you have given.
    I cannot fathom how we can even begin to think that we are 
going to deal with this poppy situation with the eradication 
policy that we have right now. Total failure, nonsense.
    The only way you can deal with this eradication is if you 
do it in what I would call a scorched earth approach involving 
tens of thousands of troops, absolutely wiping it out, 
controlling the area militarily and then instituting a crash 
program of some kind, which you have alluded to, about 
agricultural alternatives that don't even exist.
    There is not a single landfill in Afghanistan. 
Hydroelectric capacity is, at best, diminished. There are no 
cooling facilities, drying facilities, transportation 
facilities associated with alternative agriculture.
    I can't see it. We talk about being there for the long run. 
I have no idea what that means in practical terms. I am the 
chair of the Air and Land Subcommittee. We are going to deal--I 
have to make recommendations to the chairman shortly with 
regard to working with the Readiness Subcommittee with regard 
to what we are going to do with the Army.
    I have to have a summary right now, the mission of the 
National Guard has completely changed. We don't have a National 
Guard in this country anymore. It is just an adjunct of active 
duty operations. We don't have any troops, we don't have any 
readiness, we don't have any capacity, and now the dollar has 
sunk out of sight and we are in the middle of a recession.
    This discussion seems to me to be totally beside reality. 
What I want to know is--and I would appreciate it particularly 
from Dr. Rubin's point of view--why don't we buy the poppy 
crop? Why don't we buy it and use the--and give the money? If 
we subsidize agriculture in this country, we subsidize 
biofuels, we subsidize everything else, why don't we buy the 
poppy crop, turn it into a pharmaceutical derivative of one 
kind and another and use the money to begin to try and, 
particularly in the south, start developing an alternative 
agriculture system, which, according to the PRT people that I 
talk to, would be welcome, that there are markets for it in the 
Emirates.
    Afghanistan has a reputation of being agriculturally--has 
terrific possibilities, but you have to have the 
infrastructure. So if you are going to use the PRTs and you are 
going to address the poppy problem in the immediate, why not 
buy the crop and turn it into pharmaceutical activity of one 
kind and another and begin a comprehensive infrastructure 
implementation for alternative agriculture, developing markets 
and so on through the PRTs?
    What do you think, Dr. Rubin?
    Dr. Rubin. Well, first, I just wanted to recall something--
thank you for that question--something that I mentioned 
earlier, which is that we have to work on the demand side for 
agricultural products, as well as the supply side. And as long 
as we have a Bumpers Amendment that----
    Mr. Abercrombie. I missed what you said.
    Dr. Rubin. There is what appears to me--I haven't been able 
to investigate it, but there was a rather promising project for 
creation of a textile and oilseed industry in southern 
Afghanistan.
    Mr. Abercrombie. Yes.
    Dr. Rubin. Which USAID said it could not fund because it 
conflicted with the Bumpers Amendment, because the products----
    Mr. Abercrombie. Yes, I understand that. I have discussed 
all this with the AID people.
    Dr. Rubin. Now, the problem with offering to buy the poppy 
crop is that only three percent of the land in Afghanistan is 
now planted in opium poppy. If you say you are going to buy all 
of the crop, then everyone will plant that.
    Even if you bought it, no matter how big the legal crop 
was, there would still be an illegal crop. However, there is a 
very good idea in that people which you mentioned, which is the 
question of agricultural subsidies, price supports and so on.
    Farmers in Afghanistan, in fact, are asking for that. I 
haven't evaluated----
    Mr. Abercrombie. That is why I brought it up.
    Dr. Rubin. Yes. In Helmand, for instance, which is the 
leading area where opium poppy is grown, it used to be a major 
cotton producing area and some of the infrastructure is still 
there and could be rehabilitated.
    So there might be some potential for bringing--for 
guaranteeing them prices for cotton and other kinds of 
commercial crops and, in fact, the Afghan government and the 
U.S. embassy and others in Kabul are working on such a proposal 
right now and we would like your support for it.
    Mr. Abercrombie. Obviously, I don't have more time to 
pursue this now. My principal point, Mr. Chairman, is simply to 
cite that we have to do things in this area, cite agricultural 
alternatives or cite dealing with eradication or cite dealing 
with the NATO troops, and ISAF needing a different approach 
doesn't accomplish it.
    We have to have some practical implementation or all is 
lost there.
    Dr. Rubin. I would like to just add that I am myself a 
private investor in Afghanistan and with some other investors, 
I have founded a company for the manufacture of essential oils 
for perfumes and personal care products.
    And from my experience in trying to run a legitimate Afghan 
agricultural-based industry for the past three years, I can 
explain to you at length why more people do not do it.
    Mr. Abercrombie. Under present circumstances, I can see it. 
But you are also there because there is a market, if you had 
stable security to be able to pursue it. Is that not correct?
    Dr. Rubin. That is correct, but we could use some help on 
shipping. At the moment, there is no way to ship those products 
from Afghanistan to the market.
    Mr. Abercrombie. That is my point.
    The Chairman. Thank you, gentleman.
    Ms. Gillibrand.
    Mrs. Gillibrand. Thank you, Mr. Chairman. I just want to 
commend you for holding this hearing. The topics of today's 
testimony are extraordinarily timely, and I have found it very 
useful.
    First, I would like to address the issue of the special 
envoy and you have all testified that you would like to have a 
coordinated special envoy with both Afghanistan and Pakistan, 
and I agree wholeheartedly with that recommendation.
    If we were able to convince this Administration or even 
wait for the next Administration to do that, one question I 
would like your expertise on is, getting America to do it is 
one thing, but do you think we could ever get the Pakistani and 
Afghanistan governments to also work together in coordinated 
operation?
    Ambassador Inderfurth. I do believe that we can do more on 
that. That relationship has been very difficult to bring 
together. President Bush actually tried to have President 
Karzai and President Musharraf to dinner. It was a nice 
symbolic step, but required a lot of follow-up.
    President Musharraf recently went to Kabul to meet with 
President Karzai and, by all accounts, it was the most 
productive meeting they have had.
    So I think that there is room there for a U.S. envoy to 
work with both, recognizing that these are their countries, 
their problem, but to kick up the level of attention and the 
interconnectedness between the two countries, both on their 
political difficulties, as well as the military security 
issues.
    So I think that there is an opportunity there and we have 
plenty of people, I think, that could be called upon that have 
the trust of both capitals.
    I will give one example. General Tony Zinni, people of that 
stature and that ability I think could be very helpful in this 
situation.
    Mrs. Gillibrand. Thank you.
    Dr. Rubin. I just want to add this is--as long as Pakistan 
has existed, Afghanistan and Pakistan have been in conflict 
with each other. There are very serious political issues 
between the two countries that cannot be solved at a dinner 
party.
    That is why we--and to get them to operate together, 
whereas they have tended to define each other as threats for 
six decades, requires a very serious political effort, not just 
a professional-level coordination effort.
    General Barno. I would just add that I think the point, 
whether you agree with the envoy idea or not, in realizing how 
intractable these problems are, the U.S. has got to, I think, 
at the military level, at the diplomatic level, perhaps at the 
economic level, look at this as a two country problem and 
organize against a two country problem.
    We are organized in almost all dimensions on single nation 
basis. All of our embassies are organized that way. Much of our 
military efforts are organized that way.
    So I think somehow we have got to break that down and come 
up with a two country solution set for this challenge.
    Mrs. Gillibrand. Would you also recommend an inspector 
general for both countries? Because right now, obviously, we 
have the inspector general of Iraq and he and his team have 
done an excellent job in identifying corruption and fraud and 
trying to prosecute that on the American contractor side and, 
also, doing thorough investigations in Iraq.
    Would you recommend an inspector general for Afghanistan, 
number one? And would you recommend that inspector general do 
both countries or have separate ones?
    Ambassador Inderfurth. I would certainly recommend an 
inspector general for Afghanistan. I think the situation with 
Pakistan is different. What I do think is required for Pakistan 
is much greater transparency and accountability for the 
coalition support fund, the almost $6 billion out of the $10 
billion total that we have provided Pakistan since 9/11, those 
funds, nobody knows what they have been spent for and there is 
no billing and the rest.
    That requires a lot more attention.
    Mrs. Gillibrand. And when I was in Pakistan this summer, 
that is what the general we met with said. He said if Congress 
can do anything, we have given these folks $10 billion, with no 
accountability, no oversight.
    So I raised the question with Secretary Gates and he is the 
one who suggested maybe through the inspector general function, 
because it hadn't occurred to me to use an inspector general in 
Pakistan because the role in Iraq is a much more oversight for 
fraud and corruption and finding misuses of American funds. And 
so he suggested that.
    I wanted your thoughts on whether that kind of structure 
would work or whether you would recommend some other kind of 
oversight where we get a receipt back from Pakistan as to where 
they spend our money or some kind of conversation at least 
about how they intend to spend our money.
    Ambassador Inderfurth. Again, I think the special inspector 
for Afghanistan would be the right approach, more congressional 
oversight and making use of our already existing mechanisms 
within the Pentagon for Pakistan I think would be the best way 
to proceed.
    Mrs. Gillibrand. Thank you. One follow-up question on the 
crops issue. Obviously, your testimony is that there are some 
challenges in the way, security being number one. Two, if you 
do have replacement crops with subsidies and providing the 
seeds, providing the business plan about how to make this an 
effective production of a stable economy.
    If you do all that, have you considered other ways to 
support such a structure besides direct subsidies? One 
suggestion I would like to give you, as I work on the 
Agriculture Committee and come from a very rural district, the 
land grant college system is extremely effective, particularly 
the Cornell Cooperative Extension program in New York. That is 
one I am familiar with.
    Would you recommend having some kind of facility where we 
have infrastructure in place to support agriculture, to help 
these farmers create their business plans? Obviously, you would 
need to have security first and you have to have roads first 
and infrastructure.
    But do you see that as something that we could have a long-
term 10-year investment on?
    Dr. Rubin. Well, first, the opium economy in Afghanistan is 
not just the crop. The crop part of it is only 20 to 30 percent 
of it. It is an industry and what Afghan rural families need is 
not just another crop. They need employment and they need 
incomes, which does not necessarily have to come from another 
crop.
    So the arguments that another crop is not as profitable are 
not really valid. Other economic activities are.
    Second, of course, we need all of those things, but the 
main point I think is the one that Rick Inderfurth made, which 
is that neither the United States nor any of the other donor 
entities active in Afghanistan has really made agricultural and 
rural development as much of a priority, and General Barno 
mentioned this very prominently, as well, as it needs to be in 
a country like Afghanistan.
    Everything you mentioned is potentially part of that 
program, but with six agricultural experts in the country, we 
won't be able to accomplish that much.
    Mrs. Gillibrand. In addition to our National Guard, as the 
chairman said.
    The Chairman. I thank the gentlelady.
    The bill that hopefully the President will sign within the 
next few days does establish, per this committee, an inspector 
general for Afghanistan. We thank you for reminding us.
    We have two members that have not asked questions. We have 
a vote on.
    Mr. Meek and Ms. Shea-Porter, if you would like to squeeze 
in before, or we could come back and give you the full time.
    So let us give it a shot, Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman. I will be brief, and I 
will even slice it in half to two and a half minutes.
    Welcome, gentlemen. I am glad that you are here.
    As we look at the NATO--I am a member of the NATO 
Parliamentary Council and there is a great discussion there 
amongst those of us that serve in the legislative bodies of the 
long-term plan for Afghanistan as it relates to financing.
    I know that we--General, you mentioned earlier that they 
are wondering if we are going to leave them again, and I think 
that is the main question not only there, but also in Iraq, 
because we can't afford to be there as long as we would like to 
be there and that is the major discussion that is going on 
right now as it relates to the economic state of our own 
country.
    The terrorism issue is very, very important to us. So I 
think that since the EU is there and many of those 
individuals--I have flown on CODELs to encourage those 
countries to take part in the Afghanistan effort. EU now has a 
financial leg of their whole European Union--and I was in 
Brussels recently--and they are going to be doing all kind of 
development projects throughout that region, throughout the 
European Union.
    They should take some responsibility, because Afghanistan--
financially--Afghanistan is a major contributor to the illegal 
narcotic flow that is going into their countries.
    Do any of you gentlemen see a link of the EU playing a role 
and the rest of the world playing a role? Because they are 
definitely doing a lot better than we are doing as it relates 
to the dollar.
    Ambassador Inderfurth. The answer is the EU does have a 
role to play. Francesco Vendrell was their special 
representative, along with the World Bank, along with the 
United Nations. Again, better coordination among all of these 
parties would be helpful.
    That is why the appointment of Paddy Ashdown or someone to 
take that lead role for coordination will be very important. 
And on NATO itself, we have not addressed the chairman's 
question about the consequences of failure. I think that that 
would require a full hearing.
    I can tell you that in terms of NATO and the coordination 
issue, there are three reports that will be out within the next 
10 days, one by the Center for the Study of the Presidency, 
Ambassador David Abshire, Afghan study group report, one by the 
Atlantic Council, one by the National Defense University, all 
on the subject of Afghanistan, which will be provided to the 
committee, and they address some of these issues you just 
mentioned.
    Mr. Meek. Financing.
    Ambassador Inderfurth. Financing, as well as the future of 
NATO.
    Mr. Meek. Thank you.
    Dr. Rubin. If I may, there is another financing issue which 
I just want to mention that is very important, which is not 
just for development projects, but how will Afghanistan 
ultimately support and sustain the security institutions that 
we are helping the country build, because we are--by necessity, 
we have instituted a salary structure which is necessary for 
recruitment, morale, and anticorruption measures, but which, so 
far, the Afghan government is not going to sustain.
    We cannot build up security forces, an educational system 
and so on, relying on year by year supplemental appropriations 
from a variety of donors. We need a much better and more 
reliable system.
    Mr. Meek. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Shea-Porter, do you want to give it a shot?
    Ms. Shea-Porter. Yes, and it will only take 30 seconds. 
Thank you, Mr. Chairman.
    Iran's influence in Afghanistan, on a scale of 1 to 10, 
economically, where would you put it, 10 being very, very 
influential for Afghanistan right now?
    Ambassador Inderfurth. Economically?
    Ms. Shea-Porter. Right.
    Ambassador Inderfurth. They have great interests 
economically with Afghanistan and, actually, good relations 
economically. The problem recently has been what is Iran up to 
in Afghanistan to make our life and the life of the coalition 
there more difficult.
    I believe that we should be engaging Iran on these issues, 
not trying to isolate. I actually worked with them when I was 
in office in something called the U.N. six-plus-two process. 
During the bond process, they were actually constructive in 
that process.
    I think we need to find out, with our friends and allies, 
more what Iran is actually up to and find ways to draw them 
into the process. We don't want to have Iran as the adversary.
    Ms. Shea-Porter. Thank you.
    And my question for Dr. Rubin, please, political influence, 
on a scale of 1 to 10, 10 being the most influential, where 
would you put Iran's influence on Afghanistan?
    Dr. Rubin. It is very hard for anyone to influence 
Afghanistan. I would say maybe four, in the sense that, 
generally speaking, the Afghan government regards Iran as being 
a positive force for stability and assistance more than it is a 
negative force, whereas it has the opposite view of Pakistan.
    Ms. Shea-Porter. Thank you very much.
    The Chairman. Several people have not voted. Do you have 
one more question, Ms. Shea-Porter? Ms. Shea-Porter?
    Ms. Shea-Porter. I am sorry. Thank you.
    The Chairman. You may have time for one more question.
    Ms. Shea-Porter. The last question is do you think that we 
need to be working harder, and that was part of it, working 
harder to talk to Iran about Afghanistan? And you had indicated 
that you thought we did need to----
    Ambassador Inderfurth. Yes, yes.
    Ms. Shea-Porter [continuing]. Include them in these 
conversations.
    Ambassador Inderfurth. That is right, including in any 
regional approach to Afghanistan, Iran, Pakistan, the other 
neighbors, India, China, all have to be part of the solution.
    General Barno. Just a comment. There were ongoing informal 
discussions with Iran in Kabul between our embassy and the 
Iranian embassy while I was there and it was noted that they 
were generally playing, during that era, 2004, 2005, more of a 
positive role.
    I think one of the concerns we have looking forward to the 
Afghan presidential election in 2009, which is just over a year 
ago, is what role Iran will play in that election, behind the 
scenes or in front of the scenes.
    Dr. Rubin. The United States and Iran collaborated very 
closely in removing the Taliban regime and in putting the 
current government in place. And in the past couple of years, 
Iranian diplomats have approached me as a nongovernmental 
person repeatedly to signal that they would like to engage more 
with the United States on Afghanistan.
    Ms. Shea-Porter. Thank you very much.
    The Chairman. I thank the gentlelady. I thank you.
    And, gentlemen, thanks for your excellent testimony. I wish 
we had a few more minutes to discuss this all important issue, 
but it is an excellent way for us to get a start this year on 
the most important topic, and you have our appreciation.
    [Whereupon, at 12:26 p.m., the committee was adjourned.]
?

      
=======================================================================



 
                            A P P E N D I X

                            January 23, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 23, 2008

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 23, 2008

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
